<html>
<title> - EMERGING THREATS AND SECURITY IN THE WESTERN HEMISPHERE: NEXT STEPS FOR U.S. POLICY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                  EMERGING THREATS AND SECURITY IN THE
                   WESTERN HEMISPHERE: NEXT STEPS FOR
                              U.S. POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 13, 2011

                               __________

                           Serial No. 112-75

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
70-665                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1c7b6c735c7f696f687479706c327f737132">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable William R. Brownfield, Assistant Secretary, Bureau 
  of International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State............................................    11
The Honorable Philip S. Goldberg, Assistant Secretary, Bureau of 
  Intelligence and Research, U.S. Department of State............    19
The Honorable Daniel L. Glaser, Assistant Secretary for Terrorist 
  Financing, Office of Terrorism and Financial Intelligence, U.S. 
  Department of Treasury.........................................    30
The Honorable Paul N. Stockton, Assistant Secretary of Defense 
  for Homeland Defense and, Americas' Security Affairs, U.S. 
  Department of Defense..........................................    42

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable William R. Brownfield: Prepared statement..........    13
The Honorable Philip S. Goldberg: Prepared statement.............    21
The Honorable Daniel L. Glaser: Prepared statement...............    32

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................    73


EMERGING THREATS AND SECURITY IN THE WESTERN HEMISPHERE: NEXT STEPS FOR 
                              U.S. POLICY

                              ----------                              


                       THURSDAY, OCTOBER 13, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    I would like to recognize the visiting delegation from the 
Afghan National Assembly. We have 16 members of Parliament from 
the Afghan National Assembly, mostly from the budget and 
economic committees. We have the secretary of the budget 
committee, the chairman of budget committee. We have many 
important folks here. And the delegation is here to observe how 
committee hearings operate in the House. Good luck with that.
    And if you could please stand. I know that you are over 
here and over here as well. Thank you very much. Thank you. 
Thank you, ladies and gentlemen. It is an honor for us to have 
you visit our committee, learn from our mistakes, and get a 
good democracy going there in Afghanistan. We so appreciate 
your efforts and your hard work. Thank you so much for honoring 
us with your presence.
    After recognizing myself and my friend, the ranking member, 
Mr. Berman, for 7 minutes each for our opening statements, I 
will recognize the chair and the ranking member of the 
Subcommittee on Western Hemisphere for 3 minutes each, and then 
1 minute for any members who seek recognition.
    We will then hear from our witnesses. And, without 
objection, the witnesses' prepared statements will be made part 
of the record.
    Members may have 5 days to insert statements and questions 
for the record, subject to the length limitations in the rules.
    The Chair now recognizes herself for 7 minutes.
    In light of this week's foiled Iranian terrorist plot to be 
executed on American soil, this hearing could not be more 
timely. I want to commend the work of the DEA and the FBI and 
all of our outstanding agencies for their incredible work in 
uncovering this plot. I applaud the efforts of all law 
enforcement personnel and intelligence officers that continue 
to protect our homeland and keep us safe. Kudos, also, to the 
Mexican agencies who collaborated with us in making this a 
successful operation.
    The issues to be covered by this hearing have been a 
priority for many of us on this committee for some time, as we 
sought to develop legislative policy and the responses to 
counter Iran's increasing activities in the Western Hemisphere, 
the threat of Islamic extremists in the region, and the threat 
posed by the narcotrafficking networks and related violence in 
themselves but also as ready-made networks to facilitate and 
support other terrorist activities throughout the hemisphere, 
including right here in the United States, as we saw in that 
plot.
    We must stop looking at the drug cartels today solely from 
a law-enforcement perspective and consider designating these 
narcotrafficking members as foreign terrorist organizations and 
their leaders as specially designated nationals if they are 
providing material support and assistance to other foreign 
terrorist organizations and especially designated nationals and 
their state sponsors.
    The foiled Iranian plot also underscores the need to assess 
current U.S. strategy and examine what actions the United 
States must now undertake, looking beyond existing initiatives 
to confront the evolving and the emerging threats and security 
challenges in the Western Hemisphere.
    The U.S. provided nearly $2 billion in security-related 
assistance to the countries in Latin America and the Caribbean 
in last fiscal year. Is this assistance advancing U.S. security 
objectives, and what have been the tangible returns on our 
investment?
    While violent crime in Central America continues to 
increase, our counternarcotics support for these countries 
remains limited. As Central America is ripped apart by drug 
violence, the State Department continues to dole out 
counternarcotics funding to regimes elsewhere in Latin America 
that are actively working against U.S. interests.
    In Bolivia, for example, State is providing $15 million for 
Fiscal Year 2011 to fight drug trafficking, and yet Bolivia is 
actively working against U.S. interests, has withdrawn from the 
Single Convention on Narcotic Drugs at the U.N., and the former 
Bolivian drug chief, General Rene Sanabria, was sentenced last 
month to 15 years in prison for drug-smuggling charges.
    In Peru, State has spent over $70 million in the past 2 
fiscal years on counternarcotics programs, but, according to 
the Office of National Drug Control Policy, overall coca 
cultivation increased in 2010 by 33 percent, which led to a 13-
year all-time high, no pun intended. Further, the new Peruvian 
administration temporarily suspended U.S.-funded coca-
eradication programs earlier this year.
    There is no question that equipment and technology are 
necessary for protecting the integrity of this region from drug 
cartels, from extremist groups, and from rogue regimes. And I 
will am pleased to see many countries in the region, such as 
Colombia, assuming a more active role in taking on these 
threats. However, Venezuela and Brazil's increasing purchase of 
advanced lethal military equipment from Russia and China is 
very troubling and may lead to an arms race in the region.
    As we formulate and implement our security policy in the 
hemisphere, it is crucial that we understand the transnational 
nature of the illicit individuals and groups whom we are 
targeting. Rogue regimes, extremist groups, they leverage the 
resources of their sympathizers to strengthen their 
capabilities in the region and advance their hate-filled 
agendas. For years, the State Department has reported on the 
fundraising activities of Hezbollah and Hamas in the region.
    This week's foiled plot contributes to the growing evidence 
of the potential links between these groups and the drug 
cartels. As we know, such a linkage was not made, because those 
were our guys posing as members of the drug cartels. But it 
seems that our sworn enemy, Iran, sees a potential kindred 
spirit in the drug cartels in Mexico. We see report on the 
expansions of the FARC into West Africa and its potential links 
with Hezbollah and al-Qaeda in the Lands of the Islamic 
Maghreb.
    In June, Iran and the rest of the Venezuela-aligned ALBA 
countries in Latin America inaugurated a military academy in 
Bolivia to educate and train their forces. And we know that 
Cuban intelligence officers are embedded throughout the 
Venezuelan Government, as well as spread across the hemisphere, 
working against U.S. national security interests. This week, we 
also learned that Venezuelan and Cuban foreign ministers led a 
delegation, which included representatives of Ecuador, 
Nicaragua, and Bolivia, to Syria to meet with al-Assad to show 
their support of his brutal attacks against his own people. 
And, finally, a Department of Defense report from last year 
stated that Iran's Quds Force has an ``increased presence in 
Latin America, particularly Venezuela.''
    Our national security interests, the stability of our 
hemisphere as a whole, and this week's failed plot has reminded 
us that our homeland security is at stake. We must take 
immediate action to counter these threats and to not waste 
valuable resources on misplaced diplomacy with those who seek 
to do us harm.
    So I thank all of our witnesses for being here today. And I 
am now so pleased to turn to my friend, the ranking member of 
our committee, Mr. Berman of California, for his statement.
    Mr. Berman. Well, thank you very much, Madam Chairman. And 
I join you in welcoming our brothers and sisters from the 
Afghan National Assembly.
    I hope nothing you see this morning will cause you to lose 
faith in democracy. But we welcome you here. And what you will 
probably see is a little bit of disagreement, while hopefully 
not being more disagreeable than usual. And we are glad to have 
you here.
    This is the first full committee hearing that we have had 
this Congress that touches on our own hemisphere, and the title 
is revealing. While there are certainly security-related issues 
in the region that deserve our very close attention, like the 
foiled plot to murder the Saudi Ambassador, I think it is a 
mistake to view our neighborhood as a constellation of threats 
rather than a series of opportunities.
    This approach is not only out of date, it has a real cost 
for the United States. In his first term, the administration of 
President George W. Bush emphasized threats and confrontations 
in the Americas. But in his second term, his administration 
adopted a very different tone. Why? Because it became painfully 
clear that his initial approach did not serve U.S. interests, 
and, in fact, it did considerable damage. The U.S. is still 
recovering from the colossal loss of influence in the region 
that resulted from those policies. And our constant post-9/11 
lectures on terrorism to a region that has suffered from 
homegrown terrorism for 50 years left a bad taste.
    Today, much of Latin America perceives that we hold them at 
arm's length or, worse, as the title of this hearing implies, 
that we see them as a problem rather than as partners.
    To its credit, the Obama administration signaled early on 
that it understood the need to chart a different course. In his 
speech to this region's leaders a few months after taking 
office, President Obama sought to defuse the ``threats and 
security'' legacy by emphasizing that trust has to be earned 
over time and pledging that the U.S. seeks an equal partnership 
in the hemisphere. ``All of us,'' he said, ``must now renew the 
common stake that we have in one another.''
    This administration has made significant strides in 
regaining that damaged trust as well as the influence that 
flows from it. The President's trip to the region this past 
March was understated but it was self-assured and purposeful. 
Secretary Clinton's frequent presence and engagement in the 
region have also paid great dividends.
    In his first State of the Union speech, President Obama 
said, ``Our power grows through its prudent use. Our security 
emanates from the justice of our cause and the force of our 
example.'' Nowhere is this notion more fitting than in our own 
hemisphere, and much more needs to be done.
    To be sure, the U.S. must remain aware of all security 
concerns in this region, and the list is long. It ranges from 
the fight against barbaric drug cartels in neighboring Mexico 
to the possibility of mass migrations to the U.S. from Cuba or 
Haiti. These issues must be placed in a policy context and in a 
framework that permits the U.S. to understand and forcefully 
pursue its strategic interest and its values.
    The witnesses before us today represent bureaus which deal 
only with, as some call it, the ``drugs and thugs'' issues in 
the Western Hemisphere. This is no reflection on the panelists, 
whose work I hold in the highest esteem, but it paints an 
incomplete and skewed picture of our relationships with our 
neighbors.
    Assistant Secretary Brownfield, because of your past work 
in the State Department bureau best positioned to frame these 
issues for us, the Bureau of Western Hemisphere Affairs, I 
would look to you to help us understand the complete picture.
    Just last week, the Western Hemisphere Subcommittee held a 
second hearing intended to peddle the notion that in the fight 
against the drug cartels, Mexico is facing a full-scale 
insurgency from politically motivated terrorists. Then a 
Republican candidate for President declared in cavalier fashion 
that we should send U.S. troops into Mexico. This is a clear 
slap in the face of our Mexican neighbors and particularly to 
our ally President Calderon on an issue that both of our 
governments have declared is a shared problem and that requires 
a true partnership to solve.
    It is critical that our policy toward the region be based 
on solid facts, yet we sometimes seem to be chasing ghosts or 
creating caricatures of security threats. We should roundly 
condemn the horrific bombings of the Israeli Embassy and the 
AMIA Center in Argentina by Iran and Hezbollah back in the 
1990s. And if the foiled Iran-backed plot to murder the Saudi 
Ambassador to the U.S. turns out to be true--and I assume it 
is--this would represent a significant escalation of Iranian 
Government terror tactics, reminiscent of those actions in 
Argentina decades ago.
    At the same time, the persistent and bizarre statement that 
Iran has built its largest Embassy in the world in Managua or, 
alternatively, Caracas is simply untrue and only distracts from 
what should be a serious discussion of the true nature and 
dimension of the Iranian threat and what we should do to 
prepare for it.
    This is neither a semantic nor an academic exercise. The 
stakes are real, and they are high. This hemisphere is, by far, 
our biggest trading partner and our biggest energy supplier. We 
aspire to the same values. Overwhelmingly, the constitutions of 
these countries are based on ours.
    If we don't keep relations with our neighbors on the right 
track, there is a real risk that the biggest regional threat 
facing the United States could become our own inability to take 
advantage of the irreplaceable ties we enjoy with the diverse 
and dynamic countries of our hemisphere.
    And I yield back.
    Chairman Ros-Lehtinen. Thank you so much.
    And I am pleased to yield 3 minutes to the Subcommittee on 
Western Hemisphere chairman, Mr. Mack of Florida, who doesn't 
peddle but puts forth thoughtful, non-Pollyanna assessments of 
the threats that our Latin American allies face. I am pleased 
to yield him 3 minutes.
    Mr. Mack. Thank you, Madam Chair. And I also want to say 
that I want to associate myself with all of your opening 
statements. And thank you for your leadership.
    And I also would like to--for those who are watching or 
paying attention to this, you could not have seen or heard more 
of a clear difference in direction than from the chair of the 
committee and the ranking member.
    The idea that we are going to be safer in our hemisphere, 
which is a shared desire by all of the countries in the Western 
Hemisphere, that this administration has somehow improved our 
security in the Western Hemisphere, I think is mistaken, 
shortsighted, and unrealistic. Not wanting to address the real 
threats creates opportunity for those that wish to do harm on 
the United States and other countries in Latin America.
    I have been suggesting and proposing for years now that 
Hugo Chavez be placed on the state-sponsor-of-terrorism list. 
There is no doubt that Hugo Chavez supports terrorist 
organizations, whether it is the FARC or Iran. We know that 
there are flights from Iran into Venezuela that go unchecked, 
and that has to stop. And Chavez needs to be held accountable.
    We also know that in Mexico the situation on the ground has 
changed, and there is no denying it. And we have had two 
hearings in the Western Hemisphere Subcommittee focused on 
Mexico and the evolution of the threat of the drug cartels. And 
I think what we have seen over the last couple of days with 
this assassination plot highlights the work of our committee in 
defining what is happening in Mexico with the cartels as an 
insurgency that uses terrorist activities to further its cause. 
You cannot deny it. Now, you might have a disagreement about 
wanting to label it as an insurgency, for political means. But 
I think if you are unwilling to identify the problem correctly, 
then you are unable to properly put a policy forward to help 
combat it.
    I will say this. Our friends in Mexico, we share the same 
goal. We want freedom, security, and prosperity for all of our 
people. Mexico doesn't want guns and cash moving south; we 
don't want drugs and terrorists moving north. We must do 
something about our border. We must secure our border.
    I think the challenges in the Western Hemisphere can be 
overcome. Things like the free-trade agreements that passed the 
House yesterday are very good starts. Unfortunately, it took a 
long time for those to come, and I have had meetings with the 
Presidents of Panama and Colombia where they almost gave up. So 
I am glad to see that we passed those.
    Madam Chair, thank you for the time. I think there are a 
lot of challenges, and I appreciate this hearing today.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Mack, for 
your leadership on those issues.
    And another leader is my good friend from New York, Mr. 
Engel, who is the ranking member on that Subcommittee on the 
Western Hemisphere. He is recognized for 3 minutes.
    Mr. Engel. Well, thank you very much, Madam Chairwoman. 
Thank you for holding this important hearing today. As the 
ranking member of the Western Hemisphere Subcommittee, I am 
well aware, personally, of your longstanding interest in the 
region. And I believe it is good that under your leadership the 
committee is paying close attention to the issues which impact 
our friends south of the border.
    Today's hearing focuses on security and emerging threats in 
Latin America and the Caribbean. These are important topics, 
and this committee is right to focus on them. Only Tuesday, we 
learned that elements of the Iranian Government tried to hire 
Mexican drug criminals to murder the Saudi Ambassador. With the 
excellent work of the DEA and the FBI, along with the improved 
security cooperation with the Mexican Government, we were able 
to apprehend the perpetrators before they could carry out this 
terrible plot.
    We have spent much time and effort expanding security 
coordination with Mexico, Colombia, and others in the region, 
interrupting the drug and crime flows through the Caribbean and 
Central America, and keeping a close eye on the relationship 
between Venezuela and Iran. As chair of the Western Hemisphere 
Subcommittee during the previous 4 years, I held hearings on 
all of these issues, and I consider them serious and worthy of 
our attention, as I know our new chairman, Mr. Mack, does as 
well.
    However, we must recognize that the issues of the region 
extend beyond security. During my tenure in the chair, the 
Western Hemisphere Subcommittee covered poverty and inequality, 
flows of remittances, relief in Haiti, press freedoms, and 
other issues. I share the concern of the chair of the full 
committee and the subcommittee and applaud this hearing, but I 
want to reiterate, we must also not forget that the issues 
which affect the Western Hemisphere go well beyond security, 
and the U.S. relationship with countries in the region extend 
significantly beyond the threats and dangers which this hearing 
will rightfully bring out.
    Yesterday's passage of the Colombia and Panama FTAs--and I 
was pleased to vote for both of them--are only examples of the 
issues which connect us to this hemisphere. The U.S. also 
shares cultural, linguistic, social, and other links with our 
southern neighbors.
    I have long said that one of our major problems involving 
security south of our border is the obscene number of American 
guns which flow down illegally south of the border--come into 
our country illegally and then go south to Mexico illegally. 
President Calderon has told me personally that he believes 90 
percent of the crimes committed by the drug cartels are 
committed with weapons that come from the United States south 
into Mexico. So if we could stop that flow, imagine how much we 
could stop the cartels and the drug violence.
    So as we move ahead with today's important hearing, let's 
remember that security is one component of the rich 
relationship the U.S. has with Latin America and the Caribbean, 
but an important component.
    And I am very pleased, Madam Chairwoman, that you called 
this important hearing today.
    Thank you. I yield back.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Engel.
    And I am pleased to recognize members for 1-minute 
statements.
    Mr. Johnson of Ohio is recognized.
    Mr. Johnson. Thank you, Madam Chairman.
    And thank you to our witnesses for being here today.
    I find that too often we tend to envision serious threats 
to our national security coming from far across the ocean, one 
or the other. What is happening in our own hemisphere is 
certainly just as important, if not more so.
    It is especially disconcerting when these emerging threats 
happen to reflect a joint venture with those who have declared 
the destruction of the United States as one of their stated 
goals.
    Of course, at this hearing today I would be remiss not to 
mention the uncovered terrorist plot of earlier this week and 
the alleged role that the Western Hemisphere played in 
facilitating a planned attack on American soil. Iran's 
continued interest in partnering with nations so close to home 
is a legitimate danger to our national security, one that 
should also draw our focus to Iran's interest in conducting 
mineral exploration in countries that just happen to have a 
large unexploited uranium deposit.
    And, with that, I look very much forward to the testimony 
from our witnesses today. I yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Sires of New Jersey is recognized.
    Mr. Sires. Thank you, Madam Chair.
    And welcome to our committee hearing.
    I will be very brief and just say that I hope that what 
happened yesterday serves as a wake-up call to this country. 
The Iranians are not in Cuba or in any other place to go to the 
Varadero beach or anything else other than to try to 
destabilize and to cause as much destruction to this country as 
possible. I really believe that in my heart. And I hope that we 
wake up to that fact.
    And I always believe that we should take a regional 
approach to the security of this country, especially when it 
comes to South America and Central America. The Merida effort 
is a great effort, but I think more of a regional approach 
should be taken.
    So, with that, I would yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you very much, sir.
    Ms. Schmidt of Ohio?
    Mrs. Schmidt. Thank you, Madam Chair.
    And I just want to dovetail, that the announcement of the 
plot to assassinate the Ambassador from Saudi Arabia in the 
United States by an Iranian operative living in Texas 
illustrates the dangers that we live in. I mean, this gentleman 
attempted to hire a presumed Zeta drug cartel member from 
Mexico to help carry out the deed. And it showcases what 
illegal drug activities can do to our national security.
    Venezuela's close relationship with Iran and its tentacles 
in the Western Hemisphere raises further concerns. More 
investigation into illegal activities occurring in the Western 
Hemisphere is critically necessary, and at least three 
questions need to be addressed.
    First, exactly what are the threats to our national 
security in the Western Hemisphere? How deep are they, how 
penetrating? And what kind of threats do they also pose to our 
allies? Two, what are we currently doing to address these 
threats? And, three, what can we be doing better, and what more 
needs to be done?
    And I am looking forward to the testimony, and I yield 
back.
    Chairman Ros-Lehtinen. Thank you, ma'am.
    Mr. Chandler is recognized.
    Mr. Chandler. Thank you, Madam Chair.
    I just am very interested--I want to thank the panel for 
being here. I am very interested to hear exactly what it is we 
are not doing that we ought to be doing, particularly vis-a-vis 
Mexico, and what solutions you all have.
    I think all of us have a sense, generally, of what the 
threats are. What are the solutions? What can this country 
actually do to secure our country from threats to our south 
that we are not doing? And I hope you all will focus on that 
particular thing as much as you can.
    Thank you.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Turner of New York is recognized.
    Mr. Turner. Thank you, Madam Chairman. I am here to listen 
and learn today. Thank you.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Connolly of Virginia?
    Mr. Connolly. Thank you, Madam Chairman.
    For a country that is preoccupied with a ``Great Satan,'' 
one has to conclude that no regime on Earth is more familiar 
with the Satanic than is the regime in Tehran.
    The outrage that was revealed this week about a plot to 
assassinate the representative of another sovereign nation in 
this capital of this sovereign nation is unacceptable. And it 
stretches credulity to believe that the highest levels of that 
government, both in the clerical circles and in Ahmadinejad's 
regime, did not know, were not aware, of this plot.
    And it seems to me the policy of the United States 
Government has to be, absent evidence to the contrary provided 
by that government, that we will hold them accountable as if 
they plotted this from the highest halls of government in 
Tehran itself.
    I look forward to the hearing, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, sir.
    Ms. Bass is recognized.
    Ms. Bass. Thank you, Madam Chair.
    From the comments and opening statements by my colleagues 
today on both sides of the aisle, we all recognize that there 
are important challenges that must be addressed within the 
region. The United States and other Western Hemisphere nations 
must increase cooperation and collaboration to successfully and 
effectively address emerging challenges.
    While I know this hearing is focused on the challenges and 
the threats in the Western Hemisphere, there are a couple 
positive examples, and I thought I would highlight those.
    The U.S. has played a critical role in recovery efforts in 
Haiti since the devastating 2010 earthquake. The U.S., in close 
collaboration with the Peru Mine Action Center, have 
successfully located and destroyed more than 3,900 land mines 
left over from the 1995 conflict between Peru and Ecuador.
    The Department of State continues to pursue Pathways to 
Prosperity, which links Western Hemisphere countries committed 
to democracy. And in this regard, one question that I hope will 
be answered is why we don't have ambassadors to Ecuador and 
Bolivia. And maybe that will come up in the testimony of the 
witnesses.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Deutch of Florida?
    Mr. Deutch. Thank you, Madam Chairman, Ranking Member 
Berman.
    Thank you to our witnesses for being here today.
    The events of this week leave no doubt that the Iranian 
regime is expanding its presence, dangerously so, in the 
Western Hemisphere. While we have been aware of the Iranian 
presence in South America for some time, the possible link 
between the foiled terror plot and the dangerous Mexican drug 
cartels is particularly troubling.
    There is no doubt that the Iranian regime is looking for 
additional opportunities to expand its fear of influence, and 
the regime seems to have found a willing partner in Mr. Chavez. 
Over the past year, the emergence of jointly owned Venezuelan 
and Iranian banks has allowed the Iranian regime to continue to 
move money throughout the international banking system and, in 
turn, continue to fund its illicit activities, nuclear 
activities, and be the leading state sponsor of terror.
    Just how Venezuela benefits from these efforts and their 
effect on the rest of the region remain unclear. As I have said 
before, I am concerned about the exploitation of the tri-border 
area by terrorist organizations through arms and drug 
trafficking, document and currency fraud, and money laundering. 
It is widely known that Iran's proxy, Hezbollah in particular, 
has benefitted financially for the manufacture and moving of 
pirated goods in the tri-border area.
    And I look forward to discussing these issues with our 
witnesses today.
    Chairman Ros-Lehtinen. Thank you, Mr. Deutch.
    Mr. Poe of Texas, the vice chair of the Subcommittee on 
Oversight and Investigations.
    Mr. Poe. The Western Hemisphere has been ignored for a long 
time, but I think we are starting to remember that what happens 
to our south is important to our national security. Everyone 
south of the border of the United States is our neighbor, after 
all.
    President Monroe, back in 1823, announced a doctrine called 
the Monroe Doctrine. Many of us learned this in school; I don't 
know if it is even taught in school anymore. But I like to see 
if that plays anything into what has taken place with our 
national policy or if that has been replaced by something else. 
Certainly, if it is still a policy of the U.S., Iran violated 
the Monroe Doctrine. And I would just like to hear you all's 
input on that philosophy of the Monroe Doctrine.
    Being a border state with Mexico, I think the border is a 
national security issue. Last year, 663 individuals came from 
special-interest countries that were caught by our law 
enforcement at the border. And I would like to hear more about 
that. And we need to, I think, label the drug cartels as 
foreign terrorist organizations and deal with them accordingly.
    Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Poe, because 
that is just the way it is.
    And I thank all of our members for wonderful opening 
statements.
    And now we are so pleased to turn to our witnesses and 
welcome them.
    First, an old friend of our committee, William Brownfield, 
the Assistant Secretary for the Bureau of International 
Narcotics and Law Enforcement Affairs at the Department of 
State. Prior to his appointment, Ambassador Brownfield served 
as U.S. Ambassador to Colombia from 2007 to 2010 and Ambassador 
to Venezuela from 2004 to 2007.
    Welcome. It is great to see you.
    Next, I would like to welcome Philip Goldberg. He is 
Assistant Secretary of the Bureau of Intelligence and Research 
at the Department of State. He previously served as the 
coordinator for implementation of United Nations Security 
Council Resolution 1874 on North Korea and as U.S. Ambassador 
to Bolivia from 2006 to 2008.
    Welcome, Mr. Goldberg.
    And I would like to welcome, also, Daniel Glaser. He is the 
Assistant Secretary for Terrorist Financing in the Office of 
Terrorism and Financial Intelligence at the Department of 
Treasury. Prior to this position, Mr. Glaser served as the 
Treasury Department Deputy Assistant Secretary for Terrorist 
Financing and Financial Crimes since November 2004.
    Welcome, Mr. Glaser.
    And, finally, I would like to welcome Paul Stockton.
    Thank you, sir.
    He is Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs. Paul is responsible on homeland 
defense activities, defense support for civil authorities, and 
Western Hemisphere security affairs for the Department of 
Defense.
    I thank all of our witnesses. I kindly remind you that your 
prepared statements will be made a part of the record, and if 
you could limit your remarks to no more than 5 minutes. And, 
without objection, your written statements will be inserted 
into the record.
    We will begin with Ambassador Brownfield.

  STATEMENT OF THE HONORABLE WILLIAM R. BROWNFIELD, ASSISTANT 
     SECRETARY, BUREAU OF INTERNATIONAL NARCOTICS AND LAW 
         ENFORCEMENT AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Brownfield. I thank you, Madam Chairman, Ranking Member 
Berman, ladies and gentlemen of the committee. Thank you for 
the opportunity to appear before you today.
    Madam Chairman, I have been in the Foreign Service for 32 
years. I mention this not just to make you feel sorry for me 
but to suggest that the answers to today's theme, emerging 
threats and security in the Western Hemisphere, have evolved 
over time.
    We are providing a snapshot of a moving train. In many 
ways, the speed and direction of that train are determined by 
our own policies and programs. If you had asked me to assess 
major threats in 1980, I would have pointed to guerrilla 
insurgencies in Central America supported by governments both 
within and outside of the hemisphere. In 1990, I would have 
answered huge vertically integrated Colombian drug cartels 
controlling all trafficking in the Andes. In the year 2000, I 
would have said that the threat was the nexus between drug 
traffickers and guerrilla insurgencies in Colombia and Peru. In 
2007, I would have argued that the most serious security threat 
to the United States had moved to Mexico, where criminal 
cartels produce, traffic, and market their product into the 
United States. Today, I believe our greatest threat has moved 
to Central America, where traffickers and criminal gangs now 
facilitate the flow of up to 95 percent of all cocaine reaching 
the U.S. and threaten the very governments themselves.
    Madam Chairman, I suggest there is cause and effect here. 
We correctly focused on Central America in the 1980s, and the 
Medellin and Cali cartels grew. As we broke the backs of the 
major cartels, smaller traffickers developed an unholy alliance 
with the Colombian FARC and ELN and the Peruvian Sendero 
Luminoso. As Plan Colombia squeezed Colombian traffickers, 
Mexican cartels filled the void. And as the Merida Initiative 
begins to bite against those cartels, we see them moving into 
Central America.
    We still face security threats from drug cartels, guerrilla 
movements, organized crime, and trafficking networks, but our 
job is to stay ahead of the emerging threats. And right now I 
believe that is Central America.
    The President made that clear last March when he announced 
his Central America Citizen Security Partnership. Our tactical 
challenge is to provide additional resources for Central 
America law enforcement and security programs, link the 
governments more closely together in regional efforts, engage 
other partners, and support our essential Plan Colombia, Merida 
Initiative, and Caribbean Basin programs. And we very much 
appreciate the committee's support in this effort.
    The committee asked us to consider, as well, security 
threats from outside the hemisphere. They may not be as great 
as those from within, but they very definitely exist.
    I served 3 very long years as Ambassador to Venezuela. When 
I arrived in 2004, the diplomatic list showed fewer than 10 
diplomats assigned to the Iranian Embassy. When I left in 2007, 
the number was above 40. The Iranian Ambassador never told me 
what his people were doing, but I assume they were doing 
something. And if you had asked me when I left Argentina in 
1989 about the prospects for massive terror attacks within 5 
years, supported by the Iranian Government, that would kill 
more than 100 innocent people in Buenos Aires, I would have 
said that probability was very remote. I would have been 
wrong--dead wrong.
    Members of the committee, our mission is to assess the 
threats from the hemisphere to the American people and support 
the programs that solve them. I believe our highest priority 
right now is Central America, but we cannot lose sight of 
Mexico, Colombia, the Caribbean, and the Andes. We must look 
ahead to tomorrow's priorities. I see an emerging trafficking 
threat from South America across the Atlantic to West Africa 
and from there to Europe or back to North America. And we must 
not lose sight of the external players in our hemisphere. We 
did that in the early 1990s; we should never do that again.
    Madam Chairman, I thank you for this opportunity, and I 
look forward to your questions.
    [The prepared statement of Mr. Brownfield follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you, Mr. Ambassador.
    Now we would like to hear from Ambassador Goldberg.

   STATEMENT OF THE HONORABLE PHILIP S. GOLDBERG, ASSISTANT 
SECRETARY, BUREAU OF INTELLIGENCE AND RESEARCH, U.S. DEPARTMENT 
                            OF STATE

    Mr. Goldberg. Thank you, Madam Chairman and Ranking Member 
Berman and members of the committee. Thank you for this 
opportunity to be with you today.
    Although much of the Western Hemisphere is experiencing 
strong economic growth, improving social conditions, and 
increasingly consolidated democratic institutions, there 
continue to be some threats to U.S. interests in the region and 
indications of new threats from outside the region.
    The drug threat to the United States continues to emanate 
primarily from the Western Hemisphere. The flow of drugs fuels 
violence in Mexico and contributes to the survival of terrorist 
groups in Colombia. Populist governments continue to work to 
undercut U.S. influence in the region. We are concerned about 
increasing Iranian activities in the hemisphere and, in 
particular, by the charges that individuals directed by 
elements of the Iranian Government were conspiring to 
assassinate the Saudi Arabian Ambassador to the United States 
on U.S. soil.
    President Calderon's ambitious efforts to combat Mexico's 
powerful drug cartels have achieved important successes but 
faces enormous challenges. Mexico is pursuing a multifaceted 
strategy to eliminate the cartels' leadership, dismantle their 
networks, and strengthen the rule of law. Mexico faces 
escalated levels of brutal violence as drug cartels fight 
amongst themselves for dominance but also seek to intimidate 
the government and population.
    Mexican drug-trafficking organizations are expanding into 
Central America, as Ambassador Brownfield said, which is 
experiencing a citizen security crisis that threatens the 
democratic gains made over the past two decades. Across the 
region, we have witnessed surges in murder rates, inroads by 
transnational gangs and narcotics traffickers, and rising 
crime. Political instability, challenged state institutions, 
rampant corruption and impunity hamper efforts to combat 
increasing threats to citizen safety in the region.
    In Colombia, in the 11 years since initiation of Plan 
Colombia, remarkable success has been achieved in the fight 
against narcotics trafficking and terrorist groups. The 
Colombian military attacks have weakened the FARC's leadership, 
and the group's membership has been cut nearly in half in the 
last decade. The Colombian Government has expanded its presence 
throughout the country. These achievements have accompanied a 
successful counternarcotics strategy, with aerial and manual 
eradication eroding one of the FARC's primary revenue sources.
    Despite these successes, Colombia still faces significant 
security challenges. The FARC remains the largest terrorist 
group in the hemisphere, with over 8,000 insurgents. It 
continues to traffic in drugs and inflict casualties on the 
military and police on a regular basis. In addition, criminal 
bands have emerged as a threat to public safety, having 
consolidated control over cocaine production and trafficking in 
some areas of the country.
    In addition, the INR, the bureau I represent, continues to 
track connections between the Venezuelan Government and the 
FARC and ELN. In July 2010, the Colombian Government publicly 
exposed the presence of FARC in Venezuela. In the first half of 
2011, the Venezuelans took stronger action against the FARC, 
arresting two of its members, likely in response to the 
diplomatic outreach initiated by Colombian President Santos.
    INR remains focused on the potential for instability in 
Cuba as a result of the changes Raul Castro has proposed to 
combat economic deterioration on the island. These plans are 
proceeding slowly, and the regime strictly limits and 
suppresses dissent. Although some changes are under way, others 
will take much longer, if they are instituted at all.
    Despite the consolidation of democracy in much of the 
hemisphere, some countries continue to suffer a decline in the 
quality of their democratic institutions. In some countries, we 
see a narrowing of freedoms of speech and dissent, a 
delegitimization of political opposition, and a weakening of 
independent legislatures and judiciaries at the hands of 
populist Presidents. Although elections are held regularly in 
these countries, electoral playing fields are skewed heavily in 
favor of incumbents.
    I say that not just because the issue is one of democracy, 
which has been a longstanding policy goal and, therefore, the 
intelligence community has followed over decades, but also 
because it has an impact on our ability to work with 
governments in the critical areas of counterterrorism and 
counternarcotics.
    There are continuing regional efforts to diminish U.S. 
diplomatic influence by creating organizations that some 
members hope will supplant the OAS and marginalize the U.S.
    On the international level, Iran continues to reach out to 
Latin America as a way to diminish its international isolation. 
So far, Iran's relations with Latin America have developed 
significantly only with leftist governments that share its goal 
of reducing U.S. Influence. Since Ahmadinejad took office in 
2005, bilateral cooperation between Iran and Venezuela has 
deepened in the areas of diplomacy and defense and, to a more 
limited extent, on energy and trade. Most moderate 
governments--and this is important to keep in mind--have 
responded coolly to Tehran's outreach.
    We remain concerned that Hezbollah is able to tap into the 
large Lebanese diaspora in Venezuela and elsewhere in Latin 
America for fundraising. And we continue to look very closely 
for any indications of other activities, particularly 
operational activity.
    I thank you again for the opportunity to be before the 
committee, and I look forward to your questions.
    [The prepared statement of Mr. Goldberg follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much, sir.
    Mr. Glaser is recognized.

    STATEMENT OF THE HONORABLE DANIEL L. GLASER, ASSISTANT 
  SECRETARY FOR TERRORIST FINANCING, OFFICE OF TERRORISM AND 
      FINANCIAL INTELLIGENCE, U.S. DEPARTMENT OF TREASURY

    Mr. Glaser. Thank you, Madam Chairman, Ranking Member 
Berman, and distinguished members of the committee. Thank you 
for the opportunity to appear before you today to discuss the 
emerging threats and security challenges in the Western 
Hemisphere.
    The Western Hemisphere is a region of particular importance 
to the Treasury Department. Our economic and financial 
institutions are fundamentally intertwined with those of our 
neighbors. Illicit financial activity in one corner of the 
region will inevitably find its way across our borders and into 
our financial institutions. Today I would like to talk to you 
about how we are employing the Treasury Department's unique 
tools and capabilities to address this threat.
    The threat emanating from narcotics trafficking has been 
and remains the preeminent illicit financial challenge in the 
region. Perhaps more than any other illicit financial activity, 
narcotics-related money laundering places our financial 
institutions at risk and undermines the integrity of financial 
systems throughout the region.
    Historically, economic sanctions have been our primary 
weapon to target the financial networks of drug-trafficking 
organizations. Over the past several years, the United States 
has sanctioned nearly 2,300 individuals and entities in Latin 
America involved in narcotics trafficking.
    Even if sanctions remain a centerpiece of the Treasury 
Department's counternarcotics strategy, we recognize the 
importance of drawing upon additional tools to achieve a deeper 
and more lasting impact. This requires enhancing our 
understanding of the financial infrastructure of Mexican drug-
trafficking organizations to enable more effective disruption. 
Along with our interagency partners, we have been working 
closely with Mexican counterparts to improve bilateral 
information-sharing and coordination as part of a more 
comprehensive strategy to attack the financial resources of 
these drug-trafficking organizations.
    In addition to demonstrating a commitment to partnership 
with the United States on illicit counter financing, the 
Government of Mexico has proposed or enacted a series of far-
reaching domestic anti-money-laundering reforms of its own. 
Further, Mexico has shown broad leadership in the region. 
Recently, for example, my counterparts at the Mexican finance 
ministry and banking commission joined me on a trip to 
Guatemala and Panama, where we, together, engaged host-country 
authorities on the importance of taking concerted action to 
undermine cartel financial networks.
    Although the terrorist financing challenge in Latin America 
does not rise to the level of the narcotics-related financing 
threat, we take terrorist fundraising and facilitation 
seriously wherever it occurs. While neither al-Qaeda nor its 
affiliates derive a significant amount of support from the 
region, Hezbollah and the narco-terrorist Revolutionary Armed 
Forces of Colombia, or the FARC, remain active. We have, 
therefore, focused our targeting efforts on FARC and Hezbollah 
fundraising and facilitation activities in Venezuela and 
Hezbollah activities in the tri-border area of Brazil, 
Paraguay, and Argentina.
    But given this hearing's focus on terrorist threats within 
the Western Hemisphere, I do think that it is important that I 
say a few words about this week's revelation that we disrupted 
an Iran Quds Force plot to assassinate the Saudi Ambassador 
here in Washington. This is a dramatic reminder that the urgent 
and serious threat we face from Iran is not limited to Iran's 
nuclear ambitions.
    Earlier this summer, the Treasury Department exposed an al-
Qaeda network operating in Iran, under agreement with the 
Iranian Government, and now we see new evidence of Iran's 
support for terrorism. This is why we have been working for 
several years to address the full spectrum of Iranian illicit 
conduct. And while it is in the interest of an increasingly 
isolated Iran to seek expansion of its economic and financial 
ties to Latin America, the reality is that, to date, Iran has 
failed to establish a meaningful financial foothold in this 
region.
    When Iran has managed to make inroads, we have been quick 
to act. Most notably, the U.S. designated, along with the 
European Union, Banco Internacional de Desarrollo, a 
Venezuelan-based subsidiary of the Export Development Bank of 
Iran. We have also proactively engaged with governments and 
private-sector officials throughout the region to warn against 
the risk of doing business with Iran.
    Treasury is also working to build a robust domestic and 
international anti-money-laundering/counterterrorist-financing 
framework to safeguard the entire region from these types of 
threats. Through the Financial Action Task Force, we have been 
working for many years to set anti-money-laundering and 
counterterrorist-financing standards and best practices and 
hold countries in the region accountable for their 
implementation. Every country in the region, with the notable 
exception of Cuba, has been or is scheduled to be assessed 
against the international anti-money-laundering/
counterterrorist-financing standards. These assessments are 
published and highlight weaknesses in each jurisdiction along 
with recommendations for remedying those deficiencies.
    Madam Chairwoman, the Treasury Department is committed to 
prioritizing our counter-illicit-financing work in the Western 
Hemisphere. We will continue to seek ways to disrupt and 
dismantle illicit financial networks and to develop strong 
systemic safeguards across the region.
    Thank you. And I look forward to answering your questions.
    [The prepared statement of Mr. Glaser follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much, sir.
    Mr. Stockton?

    STATEMENT OF THE HONORABLE PAUL N. STOCKTON, ASSISTANT 
   SECRETARY OF DEFENSE FOR HOMELAND DEFENSE AND, AMERICAS' 
          SECURITY AFFAIRS, U.S. DEPARTMENT OF DEFENSE

    Mr. Stockton. Madam Chairman, Ranking Member Berman, 
distinguished members of the committee, the Western Hemisphere 
is in the midst of a transformation. There are two trends of 
fundamental importance to U.S. security. The first trend is 
that security challenges in this hemisphere are becoming 
increasingly severe. And I look forward to talking about 
specific threats in response to your questions. But there is 
something else that is important that is going on, and that is, 
we have new opportunities to partner with the other nations in 
this region in order to work together to meet the emerging 
threats.
    The foiled Iranian plot to assassinate the Saudi Ambassador 
to the United States exemplifies how these two trends are 
coming together. On the one hand, we have a very severe threat 
in our hemisphere from Iran. At the same time, the Government 
of Mexico was an absolutely indispensable partner in helping us 
meet this challenge. I also want to praise the Government of 
Mexico for stepping up to the plate in a way that was 
absolutely essential.
    So the two trends are coming together here: Threat and 
opportunities for partnership. But there is also a broader 
trend here for partnership opportunities that I wanted to 
address.
    All across the hemisphere, we have nations that are not 
only increasingly able to handle their own threats to their own 
countries but to be what I would call ``security exporters''--
that is, to partner together with the United States to meet the 
shared challenges that we face.
    Just a few examples. I always start with Canada, our most 
special of partners in the Western Hemisphere. There is nothing 
like NORAD for us. Canada increasingly is helping out in the 
Caribbean, helping out in Central America, in ways that are 
very valuable from the U.S. perspective. But it is not only 
Canada: Chile, working in Central America to build police 
capacity; Brazil, providing an invaluable leadership role with 
MINUSTAH. And in Colombia--let's look at Colombia as the 
exemplar of this trend. Colombia, not only making progress 
against the FARC, but today training helicopter pilots from 
Mexico to go after the narcotraficantes.
    This is the broader trend. We are making progress in 
building these partnerships. But I would suggest, Madam 
Chairman, Ranking Member Berman, there is much more we can do. 
And I look forward to the opportunity to talk about this.
    Before I close, I want to thank you, the ranking member, 
and all the members of this committee for helping make this 
progress possible. It is because of the assistance that the 
United States has provided to our partner nations to build 
their capacity that enables them now to become security 
providers across our hemisphere so, together, we can meet the 
increasingly severe challenges that we face.
    Thank you so much.
    Chairman Ros-Lehtinen. Thank you very much.
    And I thank all of the panelists.
    I am so glad that you brought up Colombia as being such a 
stable ally and a security exporter. You wouldn't know it from 
the debate that took place on the House floor. You should see 
that. That was--it is like the Cambodia killing fields, you 
would think. But we thank Colombia for everything that it has 
done to transform their country by fighting against these 
extremists. And we hope that Mexico, their leadership is 
equally as successful before those drug cartels destroy that 
beautiful country.
    I wanted to ask you about the ghost flights from Iran. 
There have been reports that they are no longer going from Iran 
to Venezuela, that they are shifting to Madrid. Is that so? If 
so, why the change? And what information do we have about who 
is being transported and what is being transported?
    And my second question deals with Hezbollah operations in 
Latin America. Many of you discussed that. What changes have we 
seen in their involvement in Latin America? What are they 
targeting? You had mentioned money laundering in the tri-border 
area, et cetera. And where do you think that they will expand 
next, and what is their goal?
    Thank you.
    Mr. Goldberg. On the flights issue, Madam Chairman, we 
understand that the commercial flight that existed between Iran 
and Venezuela has ceased, but we do monitor other flights 
coming back and forth. I am somewhat constrained----
    Chairman Ros-Lehtinen. When you say flights that are 
going--so you say, in addition to this commercial flight, there 
were other flights that may still be taking place?
    Mr. Goldberg. No, I don't want to leave that impression. 
And any information that we gather from the intelligence would 
have to be discussed----
    Chairman Ros-Lehtinen. In a classified setting.
    Mr. Goldberg [continuing]. In a classified setting.
    As for Hezbollah, our interest in it and our understanding 
of their operations are largely in the fundraising area. They 
tap the largely Lebanese Shia expatriate community in Latin 
America, in Venezuela and other countries, the tri-border 
region, to raise funds. We do not know of operational 
activities, but we watch that very closely to see if----
    Chairman Ros-Lehtinen. And what can the U.S. do to put an 
end or to dampen this illicit activity of money laundering in 
the tri-border area? You mentioned these countries that are 
strong allies of the United States with whom we have very 
strong diplomatic and commercial ties. Are we without tools to 
use against this operation?
    Mr. Goldberg. I will defer to my colleague from the 
Treasury Department.
    Mr. Glaser. Thank you, Madam.
    I think, first of all, just any time we talk about 
Hezbollah fundraising, I think the first thing that is 
important to flag is, by far, the most significant donor to 
Hezbollah is Iran. All other forms of Hezbollah fundraising 
pale in comparison to the funds that Hezbollah gets from Iran. 
That is not to say that we shouldn't attack all sources of 
Hezbollah fundraising, but I think it is important to put it 
into context. Iran is the chief financial supporter of 
Hezbollah, and Hezbollah survives on Iranian support.
    That said, as you point out and as Phil pointed out, 
Hezbollah derives financial support from the Western 
Hemisphere, as well, from fundraisers in Venezuela, from 
fundraisers in the tri-border area. And I think we need to take 
a broader approach to addressing that.
    One of the most important things to do on a systemic level, 
as I noted in my testimony, is to ensure that all of these 
countries have effective anti-money-laundering/
counterterrorist-financing regulatory regimes, law enforcement 
regimes. That is something that we are working closely with all 
the countries in the region on, primarily through the Financial 
Action Task Force and through regional affiliates of the 
Financial Action Task Force. It is important that countries 
like Argentina, for example, enact money-laundering laws that 
meet international standards.
    Chairman Ros-Lehtinen. So do you believe that in these 
three countries, have they done enough to do away with the 
Hezbollah money-laundering activities?
    Mr. Glaser. Well, I think that there is more to be done on 
that. As I said, I think it is important to enact laws, but 
then, in addition to enacting the laws--which, for example, in 
Argentina remain to be enacted--it is important to take 
targeted action with respect to Hezbollah fundraising. We at 
the Treasury Department have designated 19 Hezbollah 
individuals in the Western Hemisphere over the years.
    I think an interesting act that we took earlier this year, 
separate from those 19 designations, is when we designated 
under Section 311 of the PATRIOT Act Lebanese Canadian Bank, 
which is a bank in Beirut that had ties to the Western 
Hemisphere and was a central node of a narcotics-trafficking 
organization----
    Chairman Ros-Lehtinen. So we are able to use the PATRIOT 
Act to get to some of these banks that have ties--if they have 
ties to the United States.
    Mr. Glaser. Absolutely. We use the PATRIOT Act to get at 
Lebanese Canadian Bank. And what Lebanese Canadian Bank also 
showed--the fact pattern that Lebanese Canadian Bank showed is 
that Hezbollah was deriving financial support from the criminal 
activities of this drug-trafficking ring.
    Chairman Ros-Lehtinen. And that was one case. You have 
similar success stories where we have been able to use the 
PATRIOT Act to get to these illicit operations in Latin 
America?
    Mr. Glaser. We have lots of Section 311 success stories. 
That is the 311 success story in the Western Hemisphere, 
though.
    Chairman Ros-Lehtinen. Right. Thank you very much.
    Any other comments from the panelists?
    When it comes to--well, I just have 15 seconds, so I will 
leave it for another time. Thank you so much.
    I would like to recognize my friend, the ranking member, 
for his questions.
    Mr. Berman. Thank you very much, Madam Chairman.
    And I would like to ask about two different areas. The 
first--and I guess here a little bit I want to pick up on what 
Secretary Stockton raised at the end.
    The written testimony for Assistant Secretary Goldberg 
talks about three of the top persistent threats: Drugs; 
populist governments, most particularly Venezuela; and Iran. 
Assistant Secretary Brownfield, in his written testimony and 
his oral testimony did not mention Iran, did not mention 
populist governments, did not mention Venezuela.
    Obviously, some of that comes from each function that you 
have. But building on what Assistant Secretary Stockton said, 
could you take 2 minutes, Ambassador Brownfield, to give, from 
your Western Hemisphere background, a broader policy 
perspective in terms of our security and general relationship 
with the hemisphere, in 2 minutes?
    Mr. Brownfield. Sure, Congressman. I will try.
    Obviously, you have correctly noted that Ambassador 
Goldberg and I will attack the same issues from different 
perspectives, given what our responsibilities are, not because 
we disagree. I have known the distinguished Ambassador for some 
25 years, and we always agree, at least on fundamental issues. 
I will also--that does not include the Boston Red Sox, by the 
way.
    I will also try not to move into the terrain of the Acting 
Assistant Secretary for Western Hemisphere, who obviously has 
the responsibility for overall policy.
    Congressman, I would suggest to you that Latin America, to 
a very considerable extent, is an area that has been in 
transition for the past 10 or 15 years. That transition is 
evidenced by what both Phil and I have attempted to talk about 
in terms of an appeal in some countries of populist governments 
with fairly simplistic solutions to social and economic 
problems. So we have that package of countries. Call them what 
you will.
    You have another group of countries that I would suggest 
are those that have committed themselves to a model which, in 
my opinion, has actually proven to work fairly well for the 
last 50, 60, or 200 years, and that is a model driven on market 
economies and governments that provide basic protections but 
that do not attempt to run the economy themselves.
    And then you have a group of countries in between that 
swing, if you will, between one or the other.
    Our challenge, for the last 10 years or so, has been 
dealing with those three sets of countries, attacking the 
problems--the security problems, the law-enforcement problems--
the threats, if you will, that come from the region, taking 
into account or overlaying on that approach this fundamental 
issue of transition within the region.
    Personally, I believe we have done a fairly good job at it. 
I would suggest to you that Latin America today, in the year 
2011, offers a better, more positive picture than 10 years ago 
and certainly better than 15 or 20 years ago. I think we have 
some extraordinary good-news stories to tell, Colombia foremost 
among them. I personally believe we are making progress in 
Mexico, and that progress will be increasingly evident in the 
years ahead.
    Mr. Berman. Well, thank you. I would love to hear you 
expand on this, but I got 1 minute.
    Mr. Brownfield. You only gave me 2 minutes, Congressman.
    Mr. Berman. That is right. And you only took 2\1/2\.
    Maybe this is for Secretary Glaser, although, Ambassador 
Goldberg, I would also be interested in your opinion--does the 
assassination/bombing plot that was stopped--and I will take 
what Secretary Stockton said, that there is no disagreement 
among the panelists that the Mexican Government was a partner 
in helping us to apprehend the plotter and stop the plot. But 
does that change the way we understand the threat from the 
Government of Iran?
    I am asking you in your worldwide hats.
    Mr. Glaser. Sure.
    I don't think it changes the way we view the threat from 
Iran. As I said in my oral testimony, just earlier this summer 
we exposed an al-Qaeda facilitation network operating under an 
agreement with the Iranian Government on Iranian territory. So 
Iran's support for terrorism and participation in terrorism is 
not a new phenomenon.
    Now, certainly, this most recent plot makes it even more 
troubling than ever, but from what we do at the Treasury 
Department, this just reaffirms the importance of what we have 
been doing broadly, which is trying to put financial pressure 
on Iran broadly throughout the world, Western Hemisphere and 
everywhere else, trying to isolate Iran as much as possible 
from the international financial system.
    And, as has been said by numerous people over the course of 
the last couple of days, my hope and expectation is that this 
most recent plot is going to make it a lot easier to even take 
it to the next level internationally, with respect to our 
friends and allies and partners throughout the world, to 
demonstrate to them the importance of excluding Iran from the 
international financial system.
    Mr. Goldberg. I would only add, Iran has been on our list 
of state sponsors of terrorism for decades. We go back to the 
early 1990s and the attacks that you mentioned, Mr. Berman, in 
Argentina; the attacks on U.S. troops in Iraq and support for 
those activities; a nuclear program that is not fully 
accounted-for, to say the least----
    Chairman Ros-Lehtinen. Thank you, Mr. Ambassador.
    Thank you, Mr. Berman.
    Chairman Mack of the Western Hemisphere Subcommittee.
    Mr. Mack. Thank you very much, Madam Chair.
    And I want to thank the panel for your insight and for 
being here today.
    Before I get into some of my questions, I just want to make 
a quick observation. My friend and I, Mr. Engel, we share a lot 
of the same goals in the Western Hemisphere. We agree on a lot; 
we disagree in a few places.
    I would suggest that the idea that all of the guns are 
coming from the United States to Mexico--there was a GAO 
report. As you drill down into the report, it is 90 percent of 
the guns that are traceable, and it is only the U.S. guns that 
are traceable. So I think that has to be put on the record for 
people to understand.
    Also, if we are worried about the guns going into Mexico, 
that policy, the Fast and Furious policy--everyone in this room 
should be appalled by that policy.
    Let me first start in Venezuela. Is Hugo Chavez in control 
of his government?
    Ambassador Brownfield?
    Mr. Brownfield. I would answer the question this way, Mr. 
Chairman. Virtually his entire government is unwilling to, in 
my opinion, make decisions without hearing what his view would 
be. To that extent, he clearly is in control.
    If the question is, is everything that is going on in his 
government known to him and controlled by him?, that is a more 
open question.
    Mr. Mack. But you would agree that government officials in 
Venezuela would not want to go against President Chavez.
    Mr. Brownfield. I would agree with that statement, for 
sure.
    Mr. Mack. Okay. So we know that Venezuela was selling 
gasoline in violation of the Iran Sanctions Act, supporting a 
terrorist organization. The Treasury Department, in early 
September, put sanctions on or designated four government 
officials in Venezuela on the drug kingpin--and their quote 
was, ``Today's actions exposed four Venezuela Government 
officials as key facilitators of arms, security, training, and 
other assistance in support of the FARC operations in 
Venezuela.''
    So my question is, if we have a list of state sponsors of 
terror, and we have a country and a government in Venezuela 
that is supporting terrorists and terrorist organizations, 
whether it is Iran or the FARC, and we agree that Hugo Chavez 
is in charge with an iron fist of his government, and then we 
sanction four members of his government in support of the FARC, 
how can we not designate Venezuela as a state sponsor of 
terror?
    Mr. Brownfield. Mr. Chairman, there is not a human being in 
this room who is less likely to defend the actions, decisions 
of the President of the Bolivarian Republic of Venezuela than 
your humble servant. That said, you have moved into an area 
that is beyond my area of responsibility, so I am going to 
defer on answering your specific question.
    Mr. Mack. Somehow I thought that would happen. So let me go 
into another question.
    What is the difference between the FARC and the Mexican 
drug cartels?
    Mr. Brownfield. You are looking at me, so I will take a 
crack at that one, Mr. Chairman.
    I mean, I could speak for days, but I suppose the 
fundamental differences that I would point to are that the FARC 
is an organization that claims to have a political, 
philosophical, and ideological philosophy, if you will, and the 
Mexican drug-trafficking organizations do not. That probably 
would be what I would describe----
    Mr. Mack. Okay. So, going off that, if the cartels in 
Mexico are offering health care, if they are trying to displace 
the government, isn't that politically motivated? Offering 
health care, you know, going into these communities and putting 
on barbecues or picnics and trying to win the support of the 
public so the public will listen to the cartels and not the 
government, isn't that a political motivation?
    Mr. Brownfield. You know what I am going to respond, Mr. 
Chairman, because you have already gotten me to commit to this 
last week in this very same room. I do acknowledge that many of 
the facts on the ground, the things that are being done by 
those organizations, are consistent with what we would call 
either ``terrorism'' or ``insurgency'' in other countries.
    Mr. Mack. Thank you very much.
    Madam Chair, it is clear that an insurgency is happening in 
Mexico and that Venezuela must be placed on the state-sponsor-
of-terrorism list.
    Chairman Ros-Lehtinen. Thank you, Mr. Mack.
    Mr. Engel, the ranking member on the subcommittee, is 
recognized.
    Mr. Engel. Thank you, Madam Chair.
    Let me first say to my friend Mr. Mack, we agree on a great 
deal. I don't really think it matters whether--I mentioned that 
President Calderon told me it was 90 percent. And, in fact, in 
Jamaica, the Prime Minister of Jamaica told me it was more than 
90 percent in his country. But I don't think it matters whether 
it is 70 percent or 80 percent or 90 percent. I think what 
matters is that illegal guns are coming into this country and 
then going south of the border.
    We know that these people who set up gun shops on the 
Texas-Mexico border or gun shows or things like that to sell 
multiple guns--we know where these guns are going. And, to me, 
it goes way beyond Second Amendment rights.
    If we are truly going to identify terrorism in Mexico as a 
threat, Mr. Mack, as you say, if we are going to say that this 
is a real problem with the drug cartels, then we have to do 
something to curb the illegal flow the guns coming from the 
United States and south of the border.
    And let me quote Secretary Clinton. In March 2009, she 
said, ``We know very well that the drug traffickers are 
motivated by the demand for illegal drugs in the United States 
and that they are armed by the transport of weapons from the 
United States.'' So, to me, this means, in effect, that the 
United States has played a role in creating the top persistent 
threat, Ambassador Goldberg, which you identify in your 
testimony. You put drugs at the top of the regional-threats 
list.
    So how is the U.S. Government response to this threat 
taking account of our own responsibility for the threat? I am 
disappointed that President Obama hasn't invoked U.S. law, 
which was utilized by the first President Bush and then by 
President Clinton, to be able to get at these things.
    What are we doing in the government to acknowledge and try 
to stop the flow of illegal weapons south of the border?
    Mr. Brownfield. Mr. Engel, I would--we are probably--I am 
going to hide, to a certain extent, behind the fact that what 
we do is on the south side of the border, obviously. We do the 
foreign-relations side of this effort.
    I will say to you that we are supporting programs, 
organizations, and institutions in Mexico that provide their 
side of trying to control the movement of illicit product, 
goods, and people across that border. And just as we have an 
obligation to control what moves across the border from the 
northern side, we are working with them to assure, one, they 
have the equipment; two, they have the skills, the training, 
and the expertise necessary; and, three, they have the 
coordination and jointness with U.S. institutions to control 
it.
    That I can tell you from where I sit. If you bring up the 
larger political and policy question, you have moved beyond the 
area where I can offer you useful input.
    Mr. Engel. Thank you.
    Let me raise a couple of other things quickly.
    Mr. Goldberg, your testimony points out that U.S. regional 
muscle is under stress partly because the region's countries 
are forming competing organizations and are not inviting the 
United States to become a member. The only regional 
organization in which we are members is the OAS. But recently 
we voted, every majority Member voted, to defund the OAS. I 
think that is a mistake.
    Can you talk about the importance of the OAS?
    Flawed that it is, I think we are there, we are an 
influence, we are important. And I think these competing 
organizations--you know, if you take some of these other 
groups--Mercosur, UNASUR, whatever--where we are not a part of 
it, we are much better off trying to strengthen the OAS, in my 
opinion, because we are there at the table. 
    Mr. Goldberg. Mr. Engel, my point was strictly analytical 
and speaking about the trends in the region. And I am not on 
the policy side, so I am not able to speak about the utility of 
OAS.
    As I say, it is an overarching point of what is happening 
in the region, but I take your point, obviously. But the WHA 
Bureau would need to----
    Mr. Engel. Let me ask you, Ambassador Goldberg. You and I 
sat together in February 2008 in La Paz when you were 
Ambassador to Bolivia. We currently do not have relations with 
Bolivia.
    Ambassador Brownfield, Venezuela, you were the Ambassador 
there and I think Ecuador, as well.
    Should we by thinking about sending our ambassadors back?
    And, also, in the 4 seconds I have left, I would like if 
some of the people are answering questions of some of my other 
colleagues later on, talk about Russia, China in the region. 
Should we be worried about their influence?
    Chairman Ros-Lehtinen. Thank you so much, Mr. Engel.
    Mr. Rivera, my Florida colleague, is recognized.
    Mr. Rivera. Thank you, Madam Chair.
    With your permission, may I yield 30 seconds to Chairman 
Mack?
    Chairman Ros-Lehtinen. Absolutely.
    Mr. Mack?
    Mr. Mack. Thank you very much.
    To answer the question from the gentleman from New York to 
Ambassador Brownfield, two things we can do to stop these guns 
and the flow: One, we can secure the border, finish the double-
layered fence, add more Border Patrol agents and use of 
technology; and, two, we can stop the destructive policies like 
Fast and Furious that undermine our foreign policy initiatives 
in Latin America.
    Thank you, and I yield back.
    Mr. Rivera. Thank you so much.
    Mr. Glaser, or Secretary Glaser, thank you very much for 
being here today. I appreciate it.
    Are you in charge of OFAC? Does OFAC report to you?
    Mr. Glaser. OFAC doesn't report to me. My office and OFAC 
are both part of the Office of Terrorism and Financial 
Intelligence.
    Mr. Rivera. So you all work together closely?
    Mr. Glaser. Absolutely.
    Mr. Rivera. So perhaps you could help me, because we had 
the OFAC director, Mr. Szubin I believe it is, testify before 
another committee, and I was asking about one issue of 
terrorist financing which is financing the terrorist state of 
Cuba, which we all know is on the State Department's list of 
official sponsors of terror. We know they are holding an 
American hostage right now, we know that they have murdered 
Americans over international airspace, so they certainly have 
earned their label as a terrorist state. And one of the ways we 
finance terrorism from Cuba is by expanding the flights and 
travel and the money that goes to the Cuban dictatorship 
through these flights, which OFAC regulates.
    And I was trying to get some answers from Mr. Szubin as to 
how many flights are going to Cuba, because the Obama 
administration has expanded those flights, how many passengers, 
what are the costs involved. I want to see how much money the 
United States is facilitating to finance the terrorist 
activities in Cuba, and I couldn't get answers. He was unaware 
of how many flights were going and how many passengers.
    And maybe if my office could work with you or with your 
office, you could help perhaps facilitate some of that 
information on how we are trying to regulate. If OFAC, indeed, 
is regulating that activity, perhaps I could appeal to you to 
intervene to help me get some of that information.
    Mr. Glaser. As always, we are at your disposal, and we 
would be happy to answer any questions, to the extent that we 
have the information.
    Mr. Rivera. Thank you. I appreciate that. Because it does 
seem a little contradictory that we are trying to fight the 
financing of terrorist activities but we are facilitating that 
financing of terrorist activities by allowing more and more 
resources, capital resources, to go to a terrorist regime like 
Cuba.
    And let me go to a specific example that you could perhaps 
also help me with, and that is Hezbollah's activities in Cuba. 
Information that you could provide, what is--we have seen many 
recent reports about increased activity of Hezbollah's 
terrorist activities and cooperation with Cuba. Can you tell us 
a little bit about that?
    Mr. Glaser. Well, I would defer to Ambassador Goldberg on 
the details of Hezbollah's relationship with Cuba. I can tell 
you, from the financial angle, which is the angle that we 
approach it from, there is very little financial connectivity 
between Hezbollah and Cuba. But with respect to operational 
issues or other issues----
    Mr. Rivera. Please.
    Mr. Goldberg. I would add also, on the operational 
activity, that we haven't seen such--we have seen allegations 
of such activity but have not been able to corroborate them--or 
have not corroborated them.
    Mr. Rivera. So have you not seen any of the media reports 
regarding Hezbollah setting up a base of operations in Cuba 
regarding something called the Caribbean case? Does that ring a 
bell at all to you?
    Mr. Goldberg. I have seen allegations, I have seen press 
reports. As I mentioned, we have not corroborated that. Perhaps 
we have--actually, we could go into more detail in a closed 
session, if you would like more detailed information.
    Mr. Rivera. Absolutely. Because I can understand perhaps 
you, to this point, haven't corroborated it, but I would 
suspect it is of interest that Hezbollah would be setting up 
operations in Cuba.
    Mr. Goldberg. If that were the case, certainly.
    Mr. Rivera. Thank you.
    Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Rivera.
    Mr. Chandler is recognized.
    Mr. Chandler. Thank you, Madam Chair.
    Welcome, gentlemen.
    Ambassador Brownfield, nice to see you again. I was 
particularly interested in your very brief history of our 
efforts in the last several decades in the region. And what 
struck me about it was that it seems like your view is that we 
put needed pressure on particular areas that are causing 
problems at a particular time, we solve those problems, at 
least up to a point, at least we made great inroads, but then 
the problem moves elsewhere. It moves from one country or one 
region to another.
    And now your most recent comment is you think it is worse 
in Central America than it is in Mexico or Colombia or 
elsewhere. Seems like it moved. It sounds like you believe we 
are playing an enormous game of Whac-a-Mole. Wherever we hit 
them, we may tamp it down, but it pops up elsewhere.
    And I guess my question--so much of it, of course, has to 
do with illegal drugs, the whole drug-trafficking problem. I 
guess one of my questions would be, are we ever going to be 
able to truly solve this problem, the problem of the supply of 
illicit drugs into this country? Or do we, as Mexican President 
Calderon is quick to suggest, do we need to solve the demand 
problem in this country? Will we ever be able to do it without 
solving that problem?
    Also, I would like any of you all's thoughts, please, on 
the Chinese efforts here in this hemisphere. They are obviously 
making significant investments in different countries in the 
hemisphere. Do you all consider their efforts to be a serious 
emerging threat?
    Thank you.
    Mr. Brownfield. Why don't I start, Congressman, and I will 
try to address at least three of the issues you raised.
    One, are we playing Whac-a-Mole? I don't think so, but I do 
acknowledge we have to deal with certain realities. One reality 
is we have a finite number of resources that we have available 
to dedicate to our efforts and programs in the Western 
Hemisphere. And you pay us to get maximum value out of the 
resources that are made available to us.
    Personally, I believe we have made progress. The fact that 
we are no longer talking about Colombia as a potential failed 
state or a narco state, the fact that we are now actually 
seeing progress in our large neighbor to the immediate south, 
to my way of thinking, is progress over where we were 10 or 15 
years ago.
    Second, you do bring up the issue of demand reduction. You 
are absolutely correct, as is anyone who says part of the 
solution must be demand reduction. But my response to those who 
believe it is the only solution is that, just as it is wrong to 
put your entire focus on eliminating supply, it is equally 
wrong to put your entire focus on eliminating demand. You have 
to have a balanced approach. Surely that is one lesson we have 
learned the hard way over the last 40 years. I, for one, am 
open to figuring how to adjust the balance between those two, 
as long as no one tries to convince me we should do all on one 
side or all on the other.
    Third and finally, while I am not an expert on China and 
Chinese involvement in the region, let me offer you the 
following very personal observation. I was U.S. Ambassador to 
Chile for 2\1/2\ years, to Venezuela for 3 years, and to 
Colombia for 3 years. And my Chinese counterpart was a very 
important player in each of those three countries in this past 
decade. Thirty years ago I very much doubt that would have been 
the case.
    If Dr. Goldberg wishes to offer more observations, I cede 
the floor to him.
    Mr. Goldberg. Just very quickly.
    China clearly has economic interests around the world. It 
looks for raw resources in much of Africa and Latin America, 
continues to do so. It seeks markets for its exports. So these 
are economic challenges, is how I would best describe it.
    And in terms of political relationships, China has a 
growing relationship with Brazil because of the involvement in 
the BRICS group of countries--Brazil, Russia, India, China, and 
South Africa. And so there is some concert of diplomatic 
positions. But that is how I would describe it.
    Mr. Glaser. Just to add very quickly from an illicit-
finance perspective, which is what I focus on, I haven't seen 
any Chinese activity in the region which would raise an 
illicit-financing concern.
    However, I do think it is worth pointing out that the 
black-market peso exchange, which is the primary mechanism 
through which narcotics funds in this hemisphere are 
laundered--and it has been with us for decades; it used to be a 
closed system within the Western Hemisphere--now has branched 
throughout the world, including into East Asia.
    So it is important that we work with our Chinese 
counterparts to focus on narcotics money laundering. That is 
not to that say the Chinese are part of the problem, but, 
definitely, working with them will be part of the solution.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Duncan of South Carolina is recognized.
    Mr. Duncan. Thank you, Madam Chairman.
    And thanks to the panel for being here.
    Ambassador Brownfield, we were involved in a committee 
hearing last week I wanted to remind you about.
    You know, I don't think anyone was that surprised, who have 
been following the issue of the growing Iranian threat in this 
hemisphere, that Quds Force and Hezbollah, the arm of Iran, 
used the Mexican drug cartel as a proposed conduit for carrying 
out this assassination attempt which was foiled, thankfully, by 
the FBI this week. The relationship between Hezbollah and the 
drug cartel already exists, and we have been trying to raise 
the awareness for months.
    It is not Whac-a-Mole of chasing this group or this group. 
We have known that there has been a relationship between the 
Mexican drug cartel and Hezbollah for a long time. The evidence 
is clear, with a number of Hezbollah agents that have been 
incarcerated and captured along the border, the IED that 
exploded in July 2010, the tunneling that resemble what has 
gone on in southern Lebanon.
    So I don't believe anyone that has been following this has 
been caught off guard. But I think America, as a whole, is 
caught off guard, and it time for us to wake up in this country 
that this is a real threat in the Western Hemisphere.
    So, Madam Chairman, I want to bring to your attention House 
Resolution 429 that I filed on Tuesday night, which basically 
says that we will urge the administration to include the 
Western Hemisphere in its 2012 National Strategy for 
Counterterrorism's ``Area of Focus,'' which was absent in the 
2011 edition; that it will utilize an existing counterterrorism 
task force, to be led by the Department of Homeland Security in 
coordination with other members of the intelligence community, 
to examine Iran's present activity and relationships in the 
Western Hemisphere, including the United States of America.
    Chairman Ros-Lehtinen. I look forward to reading it. Thank 
you, Mr. Duncan.
    Mr. Duncan. Thank you. And just for the record, Mr. Higgins 
has cosponsored that, as well, on the other side of the aisle, 
so it is a bipartisan issue.
    I want to remind Ambassador Brownfield that we talked about 
this last week, and I was talking about the tri-border region, 
talking about the southern border and named a number of 
countries. And you reminded me, let's not forget Venezuela, one 
of your past posts. And so I wanted to make that point, as 
well.
    So the question I have for the panel is--and I will address 
this to Ambassador Goldberg--how do links between terrorism and 
drug and arms trafficking increase U.S. vulnerability to 
attack?
    Mr. Goldberg. The point, Congressman, that I was making 
earlier was that what is new here and what we have found in the 
last few days is a renewed interest by elements within the 
Iranian Government to carry out an attack on U.S. soil, but in 
the hemisphere. Because we had seen it in earlier times. In 
terms of----
    Mr. Duncan. But it was also the backup plan, possibly in 
Buenos Aires again, from some of the knowledge I have heard. 
And let me remind the folks that the last attack and the 
largest attack prior to 9/11 in this hemisphere happened in 
Buenos Aires, with an attack on the Israeli Embassy.
    Mr. Goldberg. No, that is true.
    In terms of what has happened, I mean, there is a case 
before a Federal court at the moment, and we need to allow that 
to play out. What I think this case shows more is Iran's 
interest in working in Mexico or doing something in Mexico than 
the other way around.
    Mr. Duncan. Okay.
    If Hezbollah has a relationship with the cartels and can 
smuggle arms or people through our southern border, what would 
prevent them from bringing WMDs here?
    Mr. Goldberg. It is a kind of hypothetical question and one 
that, clearly, we watch, we monitor. We try to prevent any kind 
of attack or use of the hemisphere for these kinds of 
activities. International terrorist groups, of course, are 
looking for opportunities everywhere, and we have to be 
vigilant against them in the intelligence community and the 
law-enforcement community. That is what we do.
    Mr. Duncan. Yeah.
    In the remaining time, Ambassador Brownfield, can you 
enlighten me a little bit more on the relationship between Iran 
and Venezuela as we have seen it in the last few months?
    Mr. Brownfield. Congressman, I have been out of Venezuela 
now for more than 4 years, and, as a consequence, much of my 
personal data is going to be somewhat dated.
    But I would say, very shortly, very briefly and succinctly, 
first, there is a much greater presence, official presence, of 
the Iranian Government in Venezuela today than there was, say, 
10 years ago.
    Second, there is obviously a much stronger political 
relationship, visits between the two Presidents and engagement 
at senior levels, than there was 10 years ago.
    Third, there is greater mutual support in international 
organizations like the United Nations, the IAEA, Atomic Energy 
Agency, than there was 10 years ago. That is evident, it is 
public, it is in the media, and neither side denies it. Other--
--
    Chairman Ros-Lehtinen. Thank you very much.
    Thank you, Mr. Duncan.
    Mr. Duncan. Thank you.
    Chairman Ros-Lehtinen. Mr. Meeks is recognized. He is the 
ranking member on the Subcommittee on Europe and Eurasia.
    Mr. Meeks. First, let me just say, it has become clear and 
I see a lot of my colleagues are concerned about terrorism, et 
cetera. One of the things I think that everybody can agree, 
that President Barack Obama has been focused and he has been 
doing a very good job in fighting terrorism and terrorists 
coming in here and getting rid of al-Qaeda and a number of the 
others. I mean, I think his record speaks for itself. And most 
Americans, even in the recent policies, they may argue about 
one thing, but one thing that they agree on is President Barack 
Obama's focus and the way that he is utilizing all of the 
intelligence to make sure that he keeps America safe.
    Now, I love this hemisphere. You know, I was sitting and 
listening, and I believe that we must, indeed, examine the 
topic of today's hearing, but we must do so without the 
polarizing rhetoric that is reminiscent of the U.S. policies of 
decades ago when our Nation looked at the region through the 
cold-war prism and chose our allies and interventions on that 
basis alone. We made some poor decisions when we were driven by 
fear and had a single and narrow focus in those days. This is 
not the time to be fearful of developments in Latin America and 
the Caribbean. I believe we would be better served to look 
practically and comprehensively at the developments in the 
hemisphere.
    I think we can reflect on some very positive and meaningful 
changes in recent years that show remarkable progress and 
promise. I scolded some of my colleagues yesterday when they 
wanted to look at Colombia only through the past. All they were 
talking about Colombia, those who voted against Colombia, was 
about Colombia's past. Nobody looked at where Colombia is today 
and the improvements that it made and the direction it was 
moving forward. We have to stop just looking at the past. Our 
hemisphere has never been this democratic. The social and 
economic reforms of the past decade have done much to shore up 
most of these nations.
    Clearly, democracy is always a work in progress, and there 
are challenges that must be addressed and objectives to be 
pursued: Poverty eradication, strengthening the rule of law, 
equal access to opportunity, security for all segments of 
society, eliminating corruption, and protecting human rights. 
And that is precisely why I have argued in this committee that 
cutting U.S. foreign aid--it is such a small but important item 
of our budget, and it is not in our interest to cut foreign 
aid.
    The emerging threats don't just stem from outside of our 
borders. A significant number of countries in the Western 
Hemisphere could very well hold a similar hearing on threats 
that stem from our own Nation. If we are going to talk about 
emerging threats, I hope we will include those issues that 
resonate so deeply south of the border. Mr. Engel has talked 
about some--the U.S. demand for drugs, the flow of guns from 
America, migration, trade expansion, the embargo against Cuba, 
to name a few.
    Let me take this opportunity to make a critical but often, 
in this committee, unacknowledged point about regional 
progress. We are seeing for the first time significant 
participation in democratic life on the part of disadvantaged 
communities who finally feel free and feel that they have a 
voice in a region where black and indigenous communities 
historically suffered without recourse. I speak in this 
instance about the United States, as well.
    Democracy is more inclusive than it has ever been. For the 
first time, many countries have elected Presidents that were 
born in poverty and do not come from their white elite. Take 
Bolivia, for example. The majority and historically 
marginalized indigenous population is more politically involved 
and take pride in the fact that President Morales is the first 
indigenous person to lead that country.
    The biggest threats to our hemisphere are not the 
personalities that some of my colleagues will label today as 
demagogues and ideologues. I would argue that, from the 
perspective of the people in our hemisphere who have chosen 
these leaders, the biggest threats are criminality and poverty. 
Recent research indicates that our regional neighbors live more 
in the center, politically, than we are often willing to 
acknowledge. Some of any colleagues are quick to see 
ideologues, but if we look more closely, we often find 
pragmatists with whom we might build constructive relationships 
and may ultimately dispel some of our assumptions without 
simply clinging to ideology.
    I remember, a decade ago, when there was a new leader on 
the scene and on the horizon in Brazil. Many worried about him 
and said that he was going to be a bad guy. But we see, years 
later, after the economy was expected to tank and social chaos 
was to ensue, instead what we saw was the movement of Brazil as 
the rising star among emerging nations, with the President Lula 
at the helm.
    And of course we must not be Pollyannas. There are 
evildoers out there, and the Western Hemisphere does need to 
confront real security threats head-on. To this end, our 
alliances with our neighbors are essential. So is continued 
engagement and continued cooperation and intelligence-sharing, 
continued assistance to build the capacity of our neighbors, 
intelligence and security institutions, and continued joint 
operations in training.
    I think that the glass is more than half-empty, it is half-
full. I think that we should salute our friends. I love the 
progress that the people in the Western Hemisphere--we always 
talk down to them. We always say bad things. There are a lot of 
good things going on in the Western Hemisphere, and I think 
that that is good for all of us.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Meeks.
    Mr. Deutch of Florida is recognized.
    Mr. Deutch. Thank you, Madam Chairman.
    Ambassador Brownfield, you spoke in your testimony about 
the difficulty that you would have had in imagining the bombing 
in Argentina at the time that you were there. The recent foiled 
Iranian terror plot highlights Iran's growing ties in the 
Western Hemisphere. But what is, in many ways, the most 
troublesome is that, at the same time, Iranian officials like 
Defense Minister Ahmad Vahidi travel freely in places like 
Latin America. Just this summer, he spent time in Bolivia.
    The reason I refer back to your comments is because Mr. 
Vahidi has been implicated in the AMIA Jewish center bombing in 
Argentina. He is subject to an INTERPOL Red Notice.
    What are we doing to prevent sanctioned officials like 
Vahidi from traveling not just in areas of concern but skirting 
international sanctions by traveling under the guise of 
official business? How are we addressing that, and how can we 
prevent it?
    Mr. Brownfield. Congressman, you raise a very valid 
question. I would remind you that it is a question, in the case 
that you are talking about, that involves the countries of 
Iran, Argentina, and Bolivia. The gentleman is actually 
currently under the equivalent of indictment in the Republic of 
Argentina for homicide-related charges.
    At the end of the day, we are members of INTERPOL. We 
support INTERPOL. To the extent that an INTERPOL warning or 
notice is out there that would give us and U.S. law enforcement 
the authority to act against an individual, we would exercise 
that authority.
    If your question is asking more what are we doing or able 
to do in Bolivia to get that government to take certain steps, 
while I am not responsible for Bolivia, obviously we have 
perhaps less ability to influence the direction that that 
government goes than certain other governments in the region.
    Mr. Deutch. Thank you, Ambassador. The question really is 
more the former. It is, individuals like Vahidi and others that 
Ahmadinejad, that the regime understands that the sanctions 
law, the ban on travel can be skirted simply by appointing 
these individuals to official positions which give them the 
ability to travel freely.
    I would throw it open to the other witnesses. I mean, I 
have suggested, and I think there are others who have looked at 
this, that existing sanctions law gives us the opportunity to 
sanction perhaps not those individuals who should not be 
traveling but can because of our treaty obligations and the 
like, but to sanction those fuel suppliers who provide the fuel 
for the airlines, for example.
    What else can we do to crack down on those who would 
otherwise be subject to a travel ban but get around it by their 
official capacity, the official title that they may hold?
    Mr. Glaser. Well, Congressman, it is tangentially related 
to your question, but I think you have part of this in mind 
because you mentioned the whole issue relating to 
transportation. That is something that we take quite seriously, 
and it is part of our overall efforts with respect to Iran. As 
you know, earlier this week, the Treasury Department designated 
Mahan Air. Earlier this summer, we designated Iran Air. And we 
have been focusing our efforts with respect to IRISL, the 
Islamic Republic of Iran Shipping Lines, for some time. So I 
think you are thinking about this the right way.
    Part of our efforts to squeeze Iran, part of our efforts to 
apply pressure on Iran isn't just related to the financial 
side, but it is related to isolating Iran on an even broader 
basis. And from the Treasury Department perspective, that is 
what we are trying do when we target entities like Iran Air and 
when we target entities like Mahan Air.
    Mr. Deutch. Mr. Glaser, just let me follow up then. As we 
go forward and look forward to the debate on further Iran 
sanctions, given the work that you do, what is the most 
important missing piece, what is it that would help you most 
that you don't currently have?
    Mr. Glaser. Well, I think when we look at our ongoing 
efforts to continue to squeeze Iran, it is about finding where 
are they finding points of access to the international 
financial system and closing those off. You know, some of the 
things that we look at, there are numerous branches of 
designated Iranian banks around the world, branches of Bank 
Saderat, branches of Bank Melli, operating in various 
countries. Those are banks that we want to focus on and isolate 
as much as possible.
    We continue our efforts to engage with countries and to 
engage with banks around the world with respect to CISADA 
enforcement. That is something we take seriously.
    And so I think that we are on the right track. I think it 
is just a question of finding where are these points of entry 
into the international financial system and trying to close 
those off.
    Mr. Deutch. Thank you.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Deutch.
    Mr. McCaul, who is the vice chair of the Subcommittee on 
the Western Hemisphere.
    Mr. McCaul. Thank you, Madam Chair.
    And welcome to the panelists.
    Ambassador, it is great to have your presence twice in 
about a week.
    Mr. Brownfield. Extreme pleasure.
    Mr. McCaul. It is an extreme pleasure for me, as well.
    And the events--and I am sure this has been discussed. I 
had a markup in Homeland Security. But the events of this week 
clearly call into question, I think, the relationship between 
terrorists and the drug cartels. And it is something that I 
think we have been talking about for quite some time.
    Certainly, the Hezbollah influence is nothing new. We have 
known that has existed in Latin America, particularly with 
Venezuela. We had Kourani, the operative who was brought across 
the border by a coyote and prosecuted in Detroit several years 
ago.
    But what happened this week is, again, I think, hard 
evidence that these groups are now trying, attempting at least, 
from their point of view, to reach out to members of the drug 
cartels, in this case the Zetas, to carry out their plots, in 
this case an assassination of a high-level official, Saudi 
Ambassador, in the Nation's capital--a pretty bold, brazen act 
on the part of Iran.
    And it makes me wonder if they haven't attempted to make 
those sort of contacts with drug cartels in the past. If anyone 
is at liberty to discuss that issue--I know we are not in a 
classified setting.
    But, Ambassador, have you heard of any other attempts to 
contact--or contacts between any terrorist organizations and 
the drug cartels?
    Mr. Brownfield. Mr. Chairman, so as to avoid being hit over 
the head by Ambassador Goldberg, seated to my immediate side, I 
will say, I am unaware of any hard evidence in that regard. I 
have seen reports, rumors, to the same extent you have. I 
cannot tell you of a specific case where I am comfortable that 
this has occurred.
    Mr. Goldberg. I would prefer to discuss it in a classified 
setting.
    Mr. McCaul. Sure. And I would like to do that. It is hard 
for me to believe that something this high-profile, that this 
would be the first time they have reached out to the Mexican 
drug cartels.
    Let me ask a couple other questions.
    Ambassador, do you believe that the Mexican drug cartels 
intimidate the civilian population in Mexico?
    Mr. Brownfield. I believe you know my answer to this 
question, Mr. Chairman, since I believe I gave it to you last 
week. In certain communities and certain places at certain 
times, yes, I do.
    Mr. McCaul. And do you believe that they also intimidate or 
coerce the government in Mexico?
    Mr. Brownfield. And to that, I gave you the same answer. It 
depends on location and time, but the answer is, in those 
cases, yes.
    Mr. McCaul. And do you agree that they carry these acts out 
by extortion, kidnappings, and political assassinations?
    Mr. Brownfield. I believe that those are among the tools 
that they use in their efforts.
    Mr. McCaul. Well, that is the definition of ``terrorism'' 
under Federal law, which is why I introduced my bill, which has 
been a little--it has been provocative--to designate them as 
foreign terrorist organizations, not to label but, rather, to 
give us additional authorities to go after them far beyond the 
``kingpin statute.'' This would be, jurisdictionally, we 
wouldn't be limited to just in the United States. And I think 
the 15-year penalty enhancement, the freezing of assets in the 
United States, and the ability to deport them would be a 
valuable tool.
    And I think, in light of what happened this week, I think 
we really have to start taking this pretty seriously. If they 
are attempting to reach out and, you know, get in bed, so to 
speak, with the Mexican drug cartels, that it is a serious 
issue.
    My judgment is, this is not some rogue operation on the 
part of Iran. My judgment is, this goes to higher levels within 
the Iranian Government and was sanctioned at higher levels by 
Iran.
    And that leads me to my next question. To anybody on the 
panel, what should be our response? I mean, I think the 
Secretary has come out--and I think she is a very smart lady--
talked about harsher sanctions, and I think we will certainly 
all support that. But what else can we do?
    For instance, should we be expelling suspected Iranian 
intelligence officers that we know may be in the United States 
and help Mexico expel the ones in Mexico? Because the Mexicans 
will tell you, we don't have a handle on who is down here. We 
don't know if there are, you know--we know that they are here, 
but they are having a hard time identifying them. And it seems 
to me we need to help Mexico in that effort.
    And I will throw that out to the panel in general. What 
should be our response?
    Mr. Goldberg. I think you might have the wrong panel for 
that.
    Mr. McCaul. And that is true, this is Western Hemisphere. 
However, given the influence they have in the hemisphere, what 
do you believe?
    Mr. Glaser. Well, I think I am qualified to talk about our 
sanctions policy with respect to Iran. It is what I spend a 
considerable part of my job doing. And I think that our overall 
efforts to date have been, from the financial-sanctions 
perspective, again, to isolate Iran from the international 
financial system, to isolate Iran economically, to apply broad 
pressure on Iran. And I think that that is the right approach; 
I think that is an approach that this government has taken for 
years----
    Chairman Ros-Lehtinen. Thank you. Thank you so much.
    Mr. McCaul. Can I--just one last question?
    Given the level of this----
    Chairman Ros-Lehtinen. Mr. McCaul, I like you lots and 
appreciate and respect you, but I have to be brutal with the 
time.
    Mr. McCaul. Okay.
    Chairman Ros-Lehtinen. Thank you.
    Mr. McCaul. Well, I appreciate that.
    Chairman Ros-Lehtinen. I apologize.
    Mr. McCaul. All right.
    Chairman Ros-Lehtinen. Mr. Connolly is recognized for 5 
minutes.
    Mr. Connolly. Thank you, Madam Chairman. And if my friend 
Mr. McCaul were to formulate a question, I would yield to him.
    Mr. McCaul. Thank you for your generosity. I really 
appreciate that. And I will return the favor in the future.
    Mr. Connolly. I know you will.
    Mr. McCaul. Just real quickly, if there this was an act at 
the highest levels in the Iranian Government, a political 
assassination--after all, a political assassination started 
World War I; it started the First World War--would you view 
this attempt to assassinate the Saudi Ambassador, if it was 
indeed sanctioned at the highest levels, as an act of warfare?
    Nobody wants to answer that?
    Mr. Brownfield. Mr. Chairman, as Ambassador Goldberg said, 
you have the wrong panel for this one. I could offer you Bill 
Brownfield's personal opinion, but that is not why we are here.
    Mr. McCaul. Uh-huh.
    Mr. Brownfield. I think it is safe for all of us to say--
and I bet I do speak for all of us on this one--that we share 
the same personal view of what has been revealed to us this 
week that you do. Where we go from there obviously does require 
other people with other responsibilities to give a useful 
response to your question.
    Mr. Goldberg. And let me just reiterate, this does 
represent something that is very disturbing--the use of Mexico, 
the proposed attempt on the life of an ambassador here in 
Washington on American soil. So all of those things, the 
premises are correct.
    Mr. McCaul. In fairness to the gentleman from Virginia, I 
am going to yield back.
    And thank you so much for your generosity.
    Mr. Connolly. I thank my colleague.
    Well, if I may follow up a little bit on that, Mr. 
Ambassador, it is disturbing. It is, actually, a lot more than 
that, presumably. And what bothers one is that with impunity 
these agents provocateurs went to Mexico knowing that is where 
they would find a willing partner.
    And so, I guess part of my question is--you know, I went to 
Mexico and met with Mexican officials over 1\1/2\ years ago 
with a rather high-level delegation here from the House, and we 
expressed great concern about violence, especially in the 
northern part of Mexico. And we even raised the question, 
frankly, of a failed state. The situation in northern Mexico 
seems to have actually gotten worse, not better.
    And so, I guess I would ask, in light of the recent 
revelations this week, how concerned do we need to be about 
stability in our southern neighbor?
    Mr. Brownfield. Why don't I start with a response to that, 
Congressman?
    And, first, I would like to remind everyone on the 
committee that, at the end of the day, what we have is a 
positive outcome. Let us not forget that a plot was foiled. It 
was foiled in no small measure due to the cooperation between 
the Governments of the United States and Mexico, which, in 
turn, is a product, perhaps, of 4 years of unprecedented 
historic cooperation between our two governments, our two 
countries, and our two peoples in addressing common threats 
from a perspective of shared responsibility. So I do want to 
remind you that that is our starting point.
    Where do we go from here? The part of this project that I 
am responsible for, which is the Merida Initiative, obviously 
we want to ensure that the support, the equipment, the 
assistance, the cooperation that we are providing to and with 
the Government of Mexico will also address this sort of threat. 
Failing to do that would make us guilty of stupidity, and while 
I am willing to be many things, I prefer not to be stupid.
    What we obviously have to do and what we are doing is 
assessing the nature of our programs, the organizations that we 
are working with, the institutions that we are working with, to 
ensure that they are better able to address this sort of threat 
in the future.
    In my opinion, what we have done over the last 4 years has 
contributed to foiling this plot. And I think for that we all 
should owe ourselves a debt of gratitude.
    Mr. Connolly. I think you make a very good point, Mr. 
Ambassador. But part two of my inquiry had to do with concern 
about stability in northern Mexico, because it looks like, 
frankly, the situation has gotten worse.
    How concerned should we be about a de facto failed state in 
the northern part of Mexico?
    Mr. Brownfield. Yep. My own view is that the Merida 
Initiative is in transition, and part of the transition 
directly addresses that issue. And that is the transition from 
support for Federal institutions and organizations to support 
for state and local organizations and institutions--police, 
prosecutors, courts, municipal governments.
    The extent to which we are able to make that pivot, that 
transition, to strengthen the states of northern Mexico, 
particularly the five states that border on the United States 
of America, will address that specific issue.
    Mr. Connolly. I thank you, Mr. Ambassador.
    And, Mr. Chairman, my time is up. I just----
    Mr. McCaul [presiding]. Wait a minute. Just let me say, now 
that I have the chair, I will be a little more generous.
    Mr. Connolly. If you would allow me just a point of 
personal privilege, I want to welcome Paul Stockton to the 
committee. Paul and I worked together in the Senate Foreign 
Relations Committee many years ago, and it is good to see at 
least one of us did well.
    Mr. Stockton. Well, Congressman, I can see who did well. 
And, again, thank you and all the members of the committee for 
your contributions and leadership.
    Mr. McCaul. Well, thank you for that.
    And the Chair now recognizes the gentleman from New York, 
Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    The theme of this hearing is emerging threats. And as 
important as knowing where terrorist activity exists, it is as 
important to know where it will exist in the future. And with a 
lot of these terrorist organizations, including Hezbollah, it 
is a new generation. They are younger, they are more 
aggressive, they are more technologically sophisticated.
    And in the 12-country region of Latin America, estimates 
are that there are about 138 Hezbollah operatives. This 
concerns me because Hezbollah acts as a proxy for Venezuela, 
Syria, and Iran. It is also estimated that Hezbollah has a 
presence in the United States in 15 major cities and also in 4 
major cities in Canada.
    My concern is that they have the presence there. And some 
will say, ``Well, they are not really a threat because they 
have a presence.'' Well, again, it is an organization that is 
committed to violent jihad. It is an organization that we 
identify as a major threat.
    So I would ask each of you to assess the concern of the 
Hezbollah presence, not only generally in the Western 
Hemisphere but more specifically in the United States and in 
Canada. Because those four cities in which Hezbollah has a 
presence, the sense is that they are there so as to have access 
to major areas of the United States.
    So I would ask you to assess that for us.
    Mr. Goldberg. Our view of Hezbollah and what it has been 
doing in the hemisphere, and particularly in South America, has 
been in the area of fundraising for its activities. We talked 
some about that earlier.
    We have not--we follow very closely, we track attempts to 
do operational activity of these groups around the world. And I 
don't have information to corroborate some of the allegations 
that I have heard over time. But it is something, you can be 
assured, that we watch very closely.
    Mr. Glaser. Well, again, I would defer to the FBI and to 
the Justice Department to speak to the threat that Hezbollah 
plays within the United States.
    With respect to Hezbollah's broad activities with the 
region, I think Ambassador Goldberg is correct. They engage in 
a lot of fundraising activities within this region. Again, I 
think it is important to always emphasize when you talk about 
Hezbollah fundraising that the vast majority of Hezbollah's 
funds come from Iran, and Iran is the primary donor to 
Hezbollah. But their fundraising activities in the Western 
Hemisphere are of concern, that is something that we are 
monitoring, it's something that we target at every opportunity.
    Again, recently, the Treasury Department, in targeting a 
particular bank in Beirut, had the opportunity to point out 
that Hezbollah does derive financial support from criminal 
activities of criminal networks that span into the Western 
Hemisphere.
    Mr. Stockton. Congressman, I would like to broaden the 
aperture a little bit and talk about an emerging threat and 
opportunity for collaboration, and that is cybersecurity.
    Both state and nonstate actors increasingly pose a 
challenge to not only the United States but partner nations 
throughout the Western Hemisphere. And we have seen recent 
denial-of-service attacks against our partner nations in the 
Western Hemisphere.
    This is a prime example of both an increasing and a 
transforming threat but also new partnership opportunities so 
that we can share our expertise with our partner nations so 
they can then help us in providing security for the Western 
Hemisphere.
    Mr. Higgins. Mr. Chairman, yielding back my time, I would 
just say that it is cold comfort when you hear the assessment 
that Hezbollah's activities in North America are limited to 
fundraising activity. It seems when there is a physical 
presence in 15 major cities in the United States and 4 major 
cities in Canada that the potential of their nefarious activity 
is certainly there and present, and we should be diligent about 
monitoring that activity moving forward.
    I represent an area, Buffalo, New York, which is 90 miles 
south of Toronto. And the Hezbollah presence in Toronto 
concerns me very much, beyond the fundraising activity. And I 
understand clearly that fundraising is a big part of this, 
but--so that would be my concern.
    I thank you, and I yield back.
    Mr. McCaul. Thank you. And I certainly share your concerns, 
as well.
    The Chair now recognizes the ranking member on Africa, 
Global Health, and Human Rights, Mr. Payne.
    Mr. Payne. Thank you very much, Mr. Chairman.
    Let me just ask the general question, in your opinions, is 
the relationship with the United States to our Central and 
South American countries in general--take the region in 
general--in your opinion, is it better today than it was in the 
immediate past decade, say, the same, or worse?
    Mr. Brownfield. Let me offer you a first cut at that, 
Congressman.
    This is not our area, because we are not responsible for 
the regional relationship. However, I said earlier, before you 
were in the room, that, in my opinion, we have made progress in 
this relationship. And, in fact, our relationship with the 
region is better today than it was 10 years ago or 15 years 
ago; that there is, to a certain extent, a competition for 
ideas in terms of what best represents the vision for the 
future of the hemisphere; and that I would suggest the vision 
that is more associated with open markets and governments that 
protect their communities but do not run the economies appears 
to be showing greater success than those with an alternative 
vision.
    Mr. Payne. Thank you very much.
    You know, we found that, you know, countries in--poor 
countries, as we do find in Central and South America--and I 
know this is not your expertise, but I am going to just throw 
it out anyway--in many instances, you do get sort of a populist 
movement, you get people who feel that there should be kind of 
a safety net for the peasants or the poor. And, in many 
instances, our Government reacts because we feel that this is a 
new socialist threat or it may be getting some influence from 
some of the--I guess, if there are any communists left. I don't 
know if--I look at China; I wonder what China is, you know?
    But what do you think about our positions that, in cases, 
change because of the election of someone that we may not agree 
with their political ideology and what our relationship should 
be? Because, in a number of instances, we simply change our 
relationship and may be less engaged with them if it is a 
government or a political ideology that we don't like.
    Mr. Goldberg. I mentioned, Mr. Payne, in my statement that 
one of the areas that we look at in the I&R Bureau is the 
activities of some of the populist governments in the region. 
And it is not for ideology that we look at it. The way we may 
view what is going on in the region is, in part, a result of 
where we sit in the intelligence community or as someone who 
deals with sanctions, and it is a different view.
    But the reason I raised it as a concern in a threat sense 
is that we have seen some of the same governments where we see 
a decline or a narrowing of democratic space, of ability of 
oppositions to exist, and rule of law especially, that it 
becomes harder to work together. And we see the same countries 
on issues like counternarcotics or counterterrorism. So that is 
what we look at from an analysis point of view.
    Mr. Payne. Well, just finally before my time expires, on 
the Merida Initiative, is there any way that--can you measure 
the human impact positively that this has had on the people of 
Mexico?
    Mr. Brownfield. Congressman, you are going to find it hard 
to believe this, but I would argue that it is still early to 
give you a definitive answer to that question. Our experience 
over the last 40 years in places such as Bolivia and Peru in 
the 1980s, Colombia in the course of the last 10 years, the 
past decade, is that it takes about 5 years for a major program 
to actually begin to show an impact. And then, often, your 
statistics are a couple of years behind the reality on the 
ground.
    What we can measure right now quite clearly is the input: 
What have we delivered to Mexico under the Merida Initiative--
how many trucks, how much equipment, how many helicopters, and 
so forth? What you have a right to hold us to in the years 
ahead is the impact that that will have: How many senior 
members of cartels have been arrested or otherwise removed from 
their activities? How has the crime rate, the homicide rate, 
the violence rate gone down? Has the successful prosecution 
rate improved?
    These are the sorts of statistics which you have every 
right in the world to hold us to. My only suggestion to you is, 
give it about 5 years before you grill us on those statistics. 
And that doesn't mean you have to wait much more than about 1 
more year before you can haul me up here and rake me over the 
coals.
    Mr. Payne. Thank you very much.
    Thank you.
    Mr. McCaul. I appreciate that. I appreciate--well, we would 
never dream of raking you over the coals up here.
    Mr. Brownfield. I appreciate that, Mr. Chairman.
    Mr. McCaul. The Chair now recognizes the gentleman from 
California, Mr. Sherman.
    Mr. Sherman. I would never rake anyone over the coals.
    As the last questioner, perhaps almost all the interesting 
questions have been asked.
    Mr. Glaser, we are focusing here on raising money for Hamas 
in the Western Hemisphere. There are several instances, at 
least that have been reported, where money has been raised for 
Hamas here in the United States and the Justice Department 
refuses to do anything about it. Do you find that frustrating?
    Mr. Glaser. I am sorry, we are talking about Hamas now and 
not Hezbollah?
    Mr. Sherman. Hamas, yeah, another terrorist organization.
    Mr. Glaser. Okay. I think the Justice Department has been 
pretty active in targeting Hamas fundraising. So I would find 
it frustrating if we in the government weren't taking it 
seriously.
    Mr. Sherman. Well, wasn't there a widely publicized 
delivery of valuable assets to Hamas in Gaza by ship 
spearheaded in part by American citizens? And is it not 
terrorist financing if you deliver trucks as opposed to cash?
    Mr. Glaser. I would consider terrorist financing to 
deliver----
    Mr. Sherman. Has a single person involved in delivering 
trucks to Hamas been even the subject of a criminal inquiry? Or 
do you want to reevaluate your answer, that the Justice 
Department is focusing on Hamas financing in the United States?
    Mr. Glaser. I am sorry, Mr. Sherman, I would have to defer 
to the Justice Department on who they are investigating and 
what the status of those investigations are.
    Mr. Sherman. We both know that the Justice Department will 
do nothing to those who deliver trucks to Hamas but will send 
you around the world trying to make sure that Hezbollah 
financing is interrupted.
    And let's shift to another issue, China. To what extent 
should we be concerned about Chinese relationships in Latin 
America, Ambassador Goldberg?
    Mr. Goldberg. I would reiterate that we view China's 
activities in the region as part of an economic challenge. They 
have a booming economy. They seek markets for their exports.
    Some of the countries, interestingly, in the region have 
the same issues about currency and Chinese currency valuation 
as we do in the United States----
    Mr. Sherman. But there is a chance they will actually do 
something about it. But that is another subject.
    Mr. Goldberg. But in political terms, China's interests 
have been largely on the economic side and in gaining raw 
materials for its economic boom. And on the political side, 
largely based in the BRICS group of countries, coordinating 
with Brazil on international issues. But, as I say, it is part 
of a global issue.
    Mr. Sherman. We know that Russia is supplying weapons to 
Venezuela. Is China doing the same? And what concerns should we 
have about Russia providing arms to Venezuela?
    Mr. Goldberg. Well, Russia's position in the region is 
different and has a more political kind of tint. Russia has, 
for example, inked deals worth about $11 billion with Venezuela 
since 2007. So there is clearly an interest in selling military 
goods in the region. There is also Russian political goals, 
traditional ones, of trying to promote multipolarity and of 
world centers of power.
    And so I do think that you would, both in a commercial 
sense when they are selling military goods but also in a 
political sense, you would look at it differently than perhaps 
some of the Chinese activities.
    Mr. Sherman. I yield back.
    Mr. McCaul. Thank you for your questions.
    I just want to close out with just an observation. I mean, 
Hezbollah is a terrorist organization. They are very prevalent 
in Latin America. In 1980, they issued a fatwa that stated its 
rationale for engaging in drug production and trafficking, and 
it said that it was making these drugs for Satan, America, and 
the Jews. ``If we cannot kill them with guns, we kill them with 
drugs.''
    Then it was reported that the Mexican Sinaloa drug cartel 
was sending elite assassins to train on weapons and explosives 
with Islamic radicals in Iran. I don't know if that is true or 
not, but if it is, it seems to me they are aiding and abetting 
a known terrorist organization.
    And then, finally, three Pakistani citizens pled guilty to 
conspiracy to provide material support to the TTP in Pakistan 
as part of a human-smuggling operation bringing these 
Pakistanis into South America.
    We don't have all the answers as to how complicit the drug 
cartels are with these organizations, and I think that is 
something that we are going to continue to investigate. But the 
more evidence that comes out that they are, the more I am led 
to the conclusion that we need to treat them as terrorist 
organizations. And I am talking about the drug cartels 
themselves.
    So, with that, let me just say thank you to the witnesses 
for your very interesting testimony.
    And, Ambassador, we hope to have you back again soon.
    One final--when we met with President Calderon--I do want 
to ask you this--he said, ``You know, we are hitting a turning 
point.'' He said, ``You may not see it right now with all the 
killings,'' but he said, ``I really believe we are hitting a 
turning point. We have trained 200,000 national Federal police 
officers.'' And he was generally, I think, optimistic about 
what a lot of people view as a very pessimistic situation.
    Do you have any observations on that?
    Mr. Brownfield. Actually, I am delighted to close on this 
point, Mr. Chairman, because I agree with that sentiment 
completely.
    And I suggest to you, it is one of the lessons that we have 
learned from our Colombia experience. That is, one, it takes a 
certain amount of time before your efforts begin to bear fruit. 
We have been at this Merida Initiative now for about 4 years. 
Second, since drug-trafficking organizations rarely report 
their data to government offices and institutions, your data is 
usually 1 or 2 years behind the reality on the ground.
    That said, look at Mexico, look at what the Mexican Federal 
police and law enforcement institutions have done. They have 
taken down, I believe, 34 senior cartel members since the year 
2009. That compares with one in the preceding 6 years. They 
have beefed up their national police from a force of somewhere 
less than 10,000 to a force of about 35,000 to 40,000 within 
the last 3 years.
    They are better equipped, they are better trained. And I 
personally agree that we are seeing results from that and will 
see them increasingly in the years ahead. If I am wrong, you 
have every right to bring me up here and berate me.
    Mr. McCaul. Well, I think that is a positive note to end 
on, Ambassador.
    And thanks to all the witnesses for being here.
    This committee stands adjourned.
    [Whereupon, at 12:22 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            <F-dash>\<Copyright>a<natural><Rx>a<star>a<Rx>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
